<html>
<title> - FIFTEEN YEARS AFTER 9/11: THREATS TO THE HOMELAND</title>
<body><pre>[Senate Hearing 114-729]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-729

           FIFTEEN YEARS AFTER 9/11: THREATS TO THE HOMELAND

=======================================================================

                                HEARING

                               BEFORE THE
                               
                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS


                             SECOND SESSION

                               __________

                           SEPTEMBER 27, 2016

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        
        
        
        
                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-160 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3d5a4d527d5e484e495558514d135e525013">[email&#160;protected]</a>         
        
        
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             HEIDI HEITKAMP, North Dakota
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska

                  Christopher R. Hixon, Staff Director
     Brooke N. Ericson, Deputy Chief Counsel for Homeland Security
             David S. Luckey, Director of Homeland Security
           Elizabeth E. McWhorter, Professional Staff Member
              Gabrielle A. Batkin, Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
     Stephen R. Vina, Minority Chief Counsel for Homeland Security
        Harlan C. Geer Minority Senior Professional Staff Member
    Marian P. Gibson, Minority U.S. Department of Homeland Security 
                                Detailee
              Eric K. Hanson, Minority U.S. Army Detailee
                     Laura W. Kilbride, Chief Clerk
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Carper...............................................     2
    Senator Paul.................................................    15
    Senator McCaskill............................................    18
    Senator Ayotte...............................................    21
    Senator Tester...............................................    23
    Senator Booker...............................................    26
    Senator Baldwin..............................................    28
    Senator Portman..............................................    30
    Senator Sasse................................................    32
    Senator Ernst................................................    35
    Senator Heitkamp.............................................    37
    Senator Lankford.............................................    39
    Senator Peters...............................................    48
Prepared statements:
    Senator Johnson..............................................    59
    Senator Carper...............................................    61

                                WITNESS
                      Tuesday, September 27, 2016

Hon. Jeh C. Johnson, Secretary, U.S. Department of Homeland 
  Security.......................................................     5
Hon. James B. Comey, Director, Federal Bureau of Investigation, 
  U.S. Department of Justice.....................................     6
Hon. Nicholas J. Rasmussen, Director, National Counterterrorism 
  Center, Office of the Director of National Intelligence........     8

                     Alphabetical List of Witnesses

Comey, Hon. James B.:
    Testimony....................................................     6
    Prepared statement...........................................    73
Johnson, Hon. Jeh C.:
    Testimony....................................................     5
    Prepared statement...........................................    63
Rasmussen, Hon. Nicholas J.:
    Testimony....................................................     8
    Prepared statement...........................................    79

                                APPENDIX

Information submitted by Senator Carper..........................    85
Information submitted by Senator Booker..........................    88
Statement from Church World Service (CWS)........................    89
Responses to post-hearing questions for the Record
    Mr. Johnson..................................................    90
    Mr. Comey....................................................   119
    Mr. Rasmussen................................................   122

 
           FIFTEEN YEARS AFTER 9/11: THREATS TO THE HOMELAND

                              ----------                              


                      TUESDAY, SEPTEMBER 27, 2016

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Portman, Paul, Lankford, Ayotte, 
Ernst, Sasse, Carper, McCaskill, Tester, Baldwin, Heitkamp, 
Booker, and Peters.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Good morning. This hearing of the Senate 
Homeland Security and Governmental Affairs Committee (HSGAC) 
will come to order.
    I want to, first, thank our witnesses, Secretary Jeh 
Johnson, Director James Comey, and Director Nicholas Rasmussen, 
first of all, for your service to this Nation. The task you 
face is not easy. I do not envy your task, but I know you all 
work tirelessly trying to keep this Nation safe. And, we truly 
do appreciate your efforts.
    I will ask unanimous consent (UC) to have my written 
statement entered into the record\1\--without objection--and I 
will keep my comments pretty short, because I think we, mainly, 
want to hear from you.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 59.
---------------------------------------------------------------------------
    I was in New York, yesterday, as one of the U.S. 
representatives to the United Nations (UN) General Assembly. 
And, I had some pretty interesting meetings with Ambassadors, 
foreign ministers, and other delegations from some of our 
coalition partners. I think it is fair to say, unfortunately, 
the general feeling is, America has not led enough to actually 
accomplish the goal that President Obama laid out 2 years ago, 
which is to defeat the Islamic State of Iraq and Syria (ISIS).
    In June of this year, Central Intelligence Agency (CIA) 
Director, John Brennan, testified before the Senate 
Intelligence Committee. And, he said that, unfortunately, 
despite all of our progress against the Islamic State of Iraq 
and the Levant (ISIL) on the battlefield and in the financial 
realm--and we have made progress--``our efforts have not 
reduced the group's terrorism capability and global reach.'' He 
went on to say, ``They remain a formidable, resilient, and 
largely cohesive enemy.'' And, Director Rasmussen, I do not 
want to steal your thunder, here, but I have to point out that, 
in your testimony, you, basically, confirm what Director 
Brennan stated. You say, ``It is fair to say that we face more 
threats, originating in more places and involving more 
individuals, than we have at any time in the past 15 years.''
    But, despite this progress--again, acknowledging the fact 
that we have made some progress on the battlefield--it is our 
judgment that ISIL's ability to carry out terrorist attacks in 
Syria, Iraq, and abroad has not, to date, been significantly 
diminished. And, the tempo of ISIL-linked terrorist activity is 
a reminder of the group's continued global reach.
    Gentlemen, you have a very difficult task: trying to defend 
our homeland--trying to keep Americans safe. But, in reading 
this, I just want to make the point that it has been 2 years 
since President Obama laid out our goal--America's goal--toward 
ISIL, which was to defeat it. Two years. It took us about 4 
years to defeat Nazi Germany and Imperial Japan. Defeating ISIS 
on the battlefield, denying them that territory, and destroying 
that caliphate is the essential first step to reducing those 
threats that, largely, have not been diminished.
    So, again, I thank you for coming here. I appreciate your 
thoughtful testimony and I am looking forward to your answers 
to our questions.
    With that, I will turn it over to Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thank you, Mr. Chairman. Let me just 
talk--I was not planning on getting into this, but, I have a 
friend, who, if you ask him how he is doing, he always says, 
``Compared to what? '' Well, compared to 2 years ago. Two years 
ago, ISIS was rolling through Syria and Iraq like Sherman 
through Georgia. And, 2,000 fighters, from around the world, 
were going to that part of the world to join up with ISIS--
2,000 a month--from the United States, it was 10 a month. Last 
month, from around the world, 50 showed up. And, from the 
United States, not even one. We have taken back half, or more, 
of the land that they had captured from all of the Sunni 
Triangle. We are moving in on Mosul, which has 2 million 
people, up to the north--we will take that out next. And, it is 
not just the United States. This is a coalition. We do not want 
to have boots on the ground. We made a decision not to have 
boots on the ground. The American people do not want that.
    And, what we do is, we bring intelligence, we bring 
training, we bring support, and we bring air power. And, 
together, this coalition is, as we say in Delaware, 
``kicking''--well, kicking something. And, we are kicking these 
guys all over Iraq, and we are kicking them around in Syria. We 
kicked them out of Libya. And, these guys are not 12 feet tall. 
They are not 12 feet tall. And, we are taking it to them.
    What is going on right now? They are losing. They are 
losing on the battlefield. They are looking for other soft 
targets. They are looking for other countries to go to, like 
Libya. And, when they go there, we will take care of them there 
as well.
    So, how are we doing? This coalition is actually doing 
pretty well. It took awhile to get it together and get it 
rolling, but we are rolling, now.
    But, Mr. Chairman, having said that, I want to thank you 
for pulling us together, today, on the heels of the terrorist 
attacks in Minnesota, New Jersey, and New York. Thank you for 
the hard work and the dedication of law enforcement officials, 
represented by the folks that are before us today. Those 
attackers were identified, and they were stopped, before they 
could fully carry out their plans. And, the vigilance and quick 
thinking of everyday citizens likely saved many lives as well. 
That, alone, serves as an important reminder that, if we see 
something, we need to say something.
    While the investigations into these attacks and their 
specific motives are still being determined, it is clear that 
these attacks were carried out by two men--two Americans, in 
fact--who spent most of their lives in our country. These 
attacks underscore a key fact--the fact that the greatest 
threat to our homeland does not come from overseas. It does not 
come from Syrian refugees or from those who travel as tourists 
on the Visa Waiver Program (VWP). The greatest threat to our 
country now comes from within--from American citizens and legal 
residents, who have spent most of their lives in this country--
in our country. My colleagues and members of our staffs may 
recall the words of renowned counterterrorism expert, Peter 
Bergen, who testified right here, before this Committee, within 
the past year--last November, in fact--when he said these 
words: ``Every person who has been killed by a jihadi terrorist 
in this country, since [the attacks on September 11, 2001] (9/
11), has been killed by an American citizen or resident.''
    Think about that. Many of the attacks are being carried out 
by Americans--by people who have lived, in some cases, their 
entire life or much of their life here. They may have come here 
as children. They grew up knowing nothing else but life in 
America. Yet, some have suggested that the way to stop these 
attacks is for America to ban entire groups of people from 
traveling to our country. Banning entire religious groups from 
entering the country will not prevent attacks from people--like 
those committed by Ahmad Rahami, in New York and New Jersey, or 
Dahir Aden, in Minnesota. Rahami came here at the age of 7, and 
Aden came here at the age of 2. They grew up as Americans. I 
believe that those who would seal America's doors to immigrants 
and refugees fundamentally misunderstand how to stop these 
homegrown attacks.
    The reality is that stopping homegrown terrorism starts 
with reaching out to local communities, building stronger 
partnerships, and making the American dream accessible to all. 
Fortunately, the Department of Homeland Security (DHS) is doing 
just that with its Office of Community Partnerships (OCP). I am 
proud that this Committee passed a bill, with bipartisan 
support, to enhance the ability of the Department to work with 
the Muslim community, and others, in order to counter the 
violent messages of ISIS and other terrorist organizations.
    Another important way to battle homegrown terrorism is by 
neutralizing the terrorists who create the hateful propaganda 
that is radicalizing our fellow Americans. That is why it is 
important that we keep taking the fight to ISIS. Simply put, we 
must continue to defeat and destroy these guys. And, by doing 
that, we prevent ISIS from portraying itself as a winner, and 
we bring to light the horrible abuses it thrusts upon innocent 
people of every age, race, religion, and nationality. The 60-
nation coalition that we lead has put ISIS on the verge of 
defeat in Iraq and Syria--and in Libya.
    For instance, ISIS once held, as I said earlier, a body of 
land in Iraq and Syria that is about the size of Austria--the 
size of South Carolina. Over the past 2 years, we have taken a 
big chunk of it back. We have also taken 45,000 ISIS fighters 
off of the battlefield, taken out a bunch of their leadership, 
and cut their funding by more than a third. And, thanks in part 
to the diligent efforts of our witnesses, we have reduced, 
dramatically, the number of fighters that are coming to that 
part of the world.
    The other thing that has not gotten much attention is that 
ISIS is really good at social media. Really good. When they 
were winning, they were really good at social media. When they 
were not doing so well, they were doing really well on social 
media. They are not doing so well on social media anymore--and 
we have finally learned how to fight that battle and to win 
that one as well.
    I will close with this. This may be Jeh Johnson's last time 
before this Committee. I just want to take a moment and thank 
you for your leadership. You remember the old commercial on 
Oldsmobiles: ``This is not your grandfather's Oldsmobile.'' 
This is not the Department of Homeland Security you took over--
you and Alejandro Mayorkas took over 3 or 4 years ago. You have 
come a long way--provided great leadership and put together a 
great leadership team. And, I thank my colleagues for helping 
to make sure you have had that leadership team, and we have 
tried to provide adequate funding. And, can you do better? 
Sure, we can all do better. But, I just want to thank you and 
Ali Mayorkas, especially, for your enlightened leadership.
    I ask that the rest of my statement, Mr. Chairman, be made 
a part of the record.\1\ Thank you.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Carper appears in the 
Appendix on page 61.
---------------------------------------------------------------------------
    Chairman Johnson. Without objection.
     Earlier this month, this Nation marked a terrible day in 
its history, 9/11, which was an unprecedented attack, on this 
Nation, by Islamic terrorists. I would just like to have this 
Committee take a moment of silence, in acknowledgment of that 
terrible day.
    [Moment of silence.]
    Thank you.
    It is the tradition of this Committee to swear in 
witnesses, so if you will all rise and raise your right hand. 
Do you swear the testimony you will give before this Committee 
will be the truth, the whole truth, and nothing but the truth, 
so help you, God?
    Secretary Johnson. I do.
    Mr. Comey. I do.
    Mr. Rasmussen. I do.
    Chairman Johnson. Please be seated.
    Our first witness is Secretary Jeh Johnson. Secretary 
Johnson is the fourth Secretary of the Department of Homeland 
Security. Prior to leading DHS, Secretary Johnson served as 
General Counsel (GC) for the Department of Defense (DOD), 
General Counsel of the Department of the Air Force, and 
Assistant U.S. Attorney for the Southern District of New York. 
Secretary Johnson.

 TESTIMONY OF THE HONORABLE JEH C. JOHNSON,\1\ SECRETARY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Secretary Johnson. Thank you, Chairman, Senator Carper, and 
Senators of this Committee. You have my prepared statement. I 
will not read it. I will just say, briefly, a couple of things.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Johnson appears in the Appendix 
on page 63.
---------------------------------------------------------------------------
    One, I have talked, repeatedly, about how we see the global 
terrorist threat evolving and the threat to our homeland 
evolving, from terrorist-directed attacks to a global threat 
environment that now includes terrorist-inspired attacks of the 
type we have seen most recently, in our homeland, where an 
actor is self-radicalized, without receiving direct orders from 
a terrorist organization, and has, as Senator Carper noted, 
very often spent most of his life here. He can be a U.S. 
citizen and he can have been born here, but he is inspired by 
things that he sees on the Internet, social media, and the 
like.
    This makes for a more complicated and challenging homeland 
security and public safety environment. I think I speak for all 
three of us when I say that the prospect of the next terrorist-
inspired attack, on our homeland, is the thing that keeps us up 
at night the most often.
    Within the Department of Homeland Security, as you have 
noted, one of the things that I have been very active in 
promoting is our efforts at building community partnerships, 
particularly with American Muslim communities. I think, in this 
environment, it is critical that we do that to encourage them--
if you see something, say something. It can make a difference--
to build bridges, in terms of grantmaking activity, resources, 
and the like.
    So, this threat is challenging, and it includes not just 
terrorist-inspired attacks. We now have a new category, which 
we refer to as ``terrorist-enabled attacks,'' which is 
something in between terrorist-directed and terrorist-inspired. 
And, every once in a while, there is something we refer to as 
``terrorist-validated,'' where a terrorist organization may 
take credit for something after the attack. And, I am sure we 
will discuss much of this, today.
    As I think you know, I have been very active, lately, in 
promoting the assistance that my Department can provide to 
State and local election officials, when it comes to their 
cybersecurity. In the run-up to the November 8th election, we 
have been working with State election officials and local 
election officials, to help them with their cybersecurity, when 
they ask. I am pleased that 18 States have now come forward and 
requested our assistance in their cybersecurity efforts.
    The last thing I will say is that I am very appreciative of 
the efforts of this Committee to codify much of what we have 
done to move forward on my ``Unity-of-Effort'' initiatives to 
build, frankly, a better Department of Homeland Security--with 
fewer stovepipes as well as more efficient, effective hiring 
and acquisition processes. All of you, I think, are aware of 
our Joint Task Forces (JTFs) for border security, which is not 
only a border security mission, but a counternarcotics mission 
as well. And, I am pleased that the Committees of Congress are 
seeking to codify that into law. I think that is vital for our 
homeland security mission, and I appreciate the support for 
much of our initiatives at management reform. I think you know 
that the levels of employee satisfaction and morale improved, 
significantly, this year, thanks to the efforts of our 
leadership team to get out there and engage the workforce and 
to show them what we can do to help them with their jobs.
    And so, we are building a better, more effective, and more 
efficient Department of Homeland Security. And, I appreciate 
the support that we have received from this Committee.
    Thank you very much.
    Chairman Johnson. Thank you, Secretary Johnson. And, we 
certainly appreciate your efforts.
    Our next witness is Director James Comey. Director Comey is 
the Director of the Federal Bureau of Investigation (FBI). 
Director Comey has also served as U.S. Attorney for the 
Southern District of New York, Deputy Attorney General (AG) for 
the Department of Justice (DOJ), and General Counsel for 
organizations in the private sector. Director Comey.

TESTIMONY OF THE HONORABLE JAMES B. COMEY,\1\ DIRECTOR, FEDERAL 
      BUREAU OF INVESTIGATION, U.S. DEPARTMENT OF JUSTICE

    Mr. Comey. Thank you, Mr. Chairman, Senator Carper, and 
Members of the Committee. It is good to be back before you, 
again. I should note that this may be the last time I sit next 
to my old friend Jeh, with whom I served as an Assistant U.S. 
Attorney in New York many years ago. And, I will miss his 
presence. I will still be here for another 7 years, Jeh. You 
are welcome back.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Comey appears in the Appendix on 
page 73.
---------------------------------------------------------------------------
    Mr. Chairman, as the Committee knows, counterterrorism 
remains the FBI's top priority for good reason. What I thought 
I would do this morning is just, very briefly--in addition to 
the written statement, which I have submitted in advance--give 
you a status report on how we think about the most prominent of 
the threats we face, which comes at us through the group of 
savages that calls itself ``the Islamic State.'' I thought I 
would give you a status report, since we were last together, on 
the three prongs of that threat.
    The first prong is their effort, over the last 2 years, to 
lure people--troubled souls seeking meaning--to travel to their 
so-called caliphate. As Senator Carper said, the traveler 
phenomenon has changed, dramatically, since last summer. It 
started to go down late last summer, and it has stayed down. 
Where we used to see 8 or 10 people from the United States, 
trying to go to the so-called caliphate, we are now down to 
one--or none--a month. That brand of the caliphate appears to 
have lost some of its power to attract troubled souls to travel 
there.
    The second dimension of the threat--the second prong--Jeh 
Johnson mentioned. And, that is, the effort--or the ability--of 
the so-called ``Islamic State'' to inspire, enable, and 
sometimes direct those in the United States to engage in acts 
of violence. That remains at the center of the FBI's challenge 
in confronting this threat. Finding those needles in the 
haystack--in fact, finding those pieces of hay that might 
become a needle, and figuring out how to disrupt them before 
they do harm, is at the center of the FBI's life. It is very 
hard work, but it is work we aspire to and believe we can do 
perfectly. And, that is our goal: to do it perfectly day after 
day after day.
    It is a challenge, not just because of the disparate nature 
of the threat, but because we increasingly are unable to see 
the communications of those who have become the most 
dangerous--the phenomenon that we refer to as ``going dark.'' 
It is a challenge we continue to try and work around, to 
mitigate, and to drive a conversation about, in the United 
States.
    The third element of the threat is one we cannot take our 
eye off of--and I assure you that people at this table and the 
people we work with have not taken their eyes off of it. The 
so-called caliphate will be crushed. The challenge will be 
that, through the fingers of that crush, are going to come 
hundreds of very dangerous people. They will not all die on the 
battlefield in Syria and Iraq. There will be a terrorist 
diaspora, sometime, in the next 2 to 5 years, like we have 
never seen before. We must prepare ourselves and our allies, 
especially in Western Europe, to confront that threat, because, 
when ISIL is reduced to an insurgency and those killers flow 
out, they will try to come to Western Europe and try to come 
here to kill innocent people. We have to keep our eye on it and 
be ready for it. And, I assure you, even though it is not 
covered a lot, that work is under way every day.
    The last thing I will say is that I believe very much that 
we have changed, as a Nation, and the FBI has changed, as an 
organization, in the last 15 years. One of the most profound 
changes in our counterterrorism efforts is our jointness--the 
way in which we work together--not just at the Federal level, 
but at the State and local level as well. I think you saw no 
better example of that than in New York and New Jersey in 
recent days, where we had everybody surging to a threat and 
working together in ways that, frankly, would have been 
unimaginable in 2000, when there was often friction between 
State and local law enforcement or between Federal authorities 
across the Hudson River. No more. That is a very important way 
in which we are transformed. And, it is a testament to the 
quality of people doing this work. I am proud to be able to 
represent them.
    And so, I appreciate your support of the FBI and our work. 
I look forward to your questions.
    Chairman Johnson. Thank you, Director Comey.
    Our final witness is Nicholas Rasmussen. Mr. Rasmussen is 
Director of the National Counterterrorism Center (NCTC). 
Director Rasmussen previously served as the Deputy Director of 
NCTC, in various functions on the National Security Council 
(NSC) staff, and in several key positions with the Department 
of State (DOS). Director Rasmussen.

TESTIMONY OF THE HONORABLE NICHOLAS J. RASMUSSEN,\1\ DIRECTOR, 
  NATIONAL COUNTERTERRORISM CENTER, OFFICE OF THE DIRECTOR OF 
                     NATIONAL INTELLIGENCE

    Mr. Rasmussen. Chairman Johnson, thank you very much for 
including me in this conversation, this morning, on our 
homeland security challenges. And, I appreciate the opportunity 
also--along with Senator Carper--to discuss the terrorism 
threats that concern us the most.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Rasmussen appears in the Appendix 
on page 79.
---------------------------------------------------------------------------
    As Secretary Johnson and Director Comey have noted, we have 
had great success. We have made great progress in strengthening 
our homeland security capacity. And, we have made progress in 
reducing that external threat from terrorist groups, 
particularly that threat of a large-scale, catastrophic attack 
that we faced so acutely on 9/11.
    That said, recent attacks in Minnesota, New York, and New 
Jersey underscore the ongoing threat we face from individuals. 
This is from individuals who choose relatively simple attack 
methods and are propagated by terrorist organizations. And, 
having passed the 15-year mark since 9/11, it is fair to say 
that the array of terrorist actors, around the globe, that we 
deal with, today, is broader, wider, and deeper than at any 
point since 9/11. And, that threat landscape that we face is 
less predictable than at any point in our post-9/11 history.
    ISIL's access to resources, in terms of both manpower and 
funds, as well as the territorial control that they have 
enjoyed in areas of Syria and Iraq, those are the ingredients 
that we have, traditionally, looked to as being critical to a 
terrorist organization's capacity to mount external attacks. 
And, for that reason--and this echoes something that Senator 
Carper said. For that reason, shrinking the size of territory 
controlled by ISIL and denying the group access to additional 
manpower--that remains a top priority. And, success in these 
areas will, ultimately, be essential to our efforts to 
constrain ISIL's capacity to act as a terrorist group with 
global reach. And, clearly, significant progress has been made, 
in these areas--in both of these dimensions.
    But, despite this progress, it is our judgment that ISIL's 
capacity and ability, today, to carry out attacks, in Syria, 
Iraq, and abroad, has not, thus far, been significantly 
diminished. And, the tempo of ISIL-linked terrorist attacks and 
terrorist activity, in Europe and other places around the 
globe, is a reminder of that global reach.
    This external operations capability has been building and 
entrenching over the past 2 years. And, we do not think that 
battlefield or territorial losses, alone, will be sufficient to 
completely degrade the group's terrorism capabilities--
necessary, but not sufficient.
    Now, the tremendous efforts we are undertaking to counter 
the ISIL threat are absolutely warranted, but I also want to 
stress that we still view al-Qaeda, and the various al-Qaeda 
affiliates, as a primary counterterrorism concern and a top 
priority. What remains of al-Qaeda's leadership, in the 
Afghanistan-Pakistan region (AfPak), still aspires to strike 
the United States and to strike Western interests--although we 
do not assess that al-Qaeda is capable, right now, of an attack 
on the scale of 9/11. But, that al-Qaeda global network remains 
dangerous and resilient. And, its affiliates in Africa, the 
Middle East, and South Asia are focused on developing more 
connectivity and more unity, despite the pressure they are 
facing from ISIL.
    Al-Qaeda in the Arabian Peninsula (AQAP), in Yemen, and the 
Nusra Front, in Syria, remain al-Qaeda's largest and highest 
capacity affiliates. And, they maintain their intent to conduct 
attacks in the West.
    We are, particularly, concerned about al-Qaeda's safe haven 
in Syria, because we know al-Qaeda is trying to strengthen its 
global network by relocating some of the remaining leadership 
from South Asia to Syria--taking advantage of the safe haven. 
And, as you know, the Nusra Front took steps, in July of this 
year, to hide its ties to al-Qaeda by changing the group's name 
and publicly claiming to separate from al-Qaeda. We believe 
firmly that Nusra Front's disassociation is in name only and 
that the group remains part of al-Qaeda--supporting the al-
Qaeda ideology and focus on attacking the West.
    Now, stepping back, there are two concerning trends in the 
contemporary threat environment that I want to flag. The first, 
as Director Comey mentioned, is the increasing ability of 
terrorist actors to communicate with each other outside of our 
reach with the use of encrypted communications. As a result, 
collecting precise intelligence on terrorist intentions and the 
status of specific plots is increasingly difficult.
    Second, while we have seen a decrease in the frequency of 
large-scale, complex plotting efforts that, sometimes, span 
months or years, we are instead seeing much more rapidly 
evolving threats, or plot vectors, that emerge quickly or 
suddenly. And, this so-called ``flash-to-bang'' ratio--the time 
between when an individual decides to attack and when an attack 
actually occurs--the ``flash-to-bang'' ratio of this kind of 
plotting is extremely compressed and allows very little time 
for law enforcement and intelligence officials to get their 
arms around a plot.
    Of course, any hope of enduring security against homegrown 
violent extremists (HVE) rests in our ability to counter the 
appeal of terrorism and to dissuade individuals, in the first 
place. To this end, NCTC continues to refine and expand our 
work on the prevention side, working closely with Secretary 
Johnson, his team at DHS, with Director Comey, and with our 
colleagues at the Department of Justice. This is an area of 
emphasis for NCTC. It is an area where we can continue to do 
more countering violent extremism (CVE) and it is an area where 
we have enjoyed great support from the Committee. And, I look 
forward to working with the Committee on this issue in the 
times ahead.
    I will stop there, Mr. Chairman. And, I look forward to 
your questions.
    Chairman Johnson. Thank you, Director Rasmussen.
    This is such an important hearing, that I have decided I 
will let the questions go for 7 minutes. But, I am going to 
warn Committee Members that I am not going to let them go a 
second over that time limit. So, I will be gaveling it. If you 
ask a question at the tail end, I will just ask for the answers 
to be submitted as questions for the record.
    Gentlemen, I think it is relatively safe to say that most 
of your activities involve playing defense. Obviously, some of 
the intelligence gathering can be used for offensive 
capabilities, but, by and large, what you are trying to do--and 
what the Department of Homeland Security, the FBI, and NCTC are 
doing--we are playing defense.
    Now, it is possible you can win a football game by playing 
defense, if you get really lucky. But, if you are really going 
to win the game, you have to go on offense.
    Director Rasmussen, one of the things I want to talk about 
is the fact that we have had 2 years where the caliphate 
continues to exist. And, yes, we have reduced their territory, 
but, according to your testimony and Director Brennan, we have 
not reduced their capability. The diaspora has already begun. 
We are poking a hive and we are doing some damage to it. But, 
the killer bees are leaving the hive, and they are setting up 
new hives.
    Director Rasmussen, can you talk about what you know of, in 
terms of the training? We have talked about inspired lone 
wolves. Now, we are talking about, potentially, ISIL-directed 
wolf packs--whether it is in airports in Brussels or Istanbul. 
I have, certainly, heard stories of children, in the caliphate, 
being trained to do savagery.
    By the way, I like your description, Director Comey: 
``savages'' and ``barbarians.''
    So, Director Rasmussen, can you just talk about what you 
know, in terms of the effectiveness of their training, both in 
the caliphate and--as long as they continue to exist--using 
social media? I think we just witnessed that in New York and 
New Jersey as well--the pressure cooker bombs--these things 
that are online. Just talk a little bit about that for me.
    Mr. Rasmussen. To your question, Mr. Chairman, there was a 
period, I would certainly argue, at the peak of the caliphate's 
geographical expanse, when there was--certainly, a greater 
share of territory was available for ISIL to conduct this kind 
of recruitment and training activity. The flow of foreign 
fighters, which Director Comey referred to, was at its peak 
approximately a year or 18 months ago. And, at that time, we 
were, certainly, concerned about the physical space that ISIL 
owned and the ability of the group to use that physical space 
to collect these foreign fighters to train, to deploy, to 
equip, and to create this cadre of potential terrorists, who 
could be deployed back out to locations around Western Europe 
and, indeed, around the globe.
    That is why the shrinkage of that physical caliphate has 
been such a high first-order priority of our strategy to defeat 
ISIL. But, we have acknowledged all along, I think--or, at 
least, as an intelligence matter, felt all along that there was 
going to be a lag between the time where we achieved 
territorial success on the battlefield and the time at which we 
could actually succeed in constraining ISIL's ability to carry 
out attacks overseas. That is because much of that 
infrastructure that was set into motion or put into place is 
going to have to be hunted down and destroyed, systematically. 
It is not simply a matter of taking territory or winning a 
battle in a place like Mosul or Raqqah.
    So, from an intelligence perspective, it is not that we are 
at all aiming to minimize the importance of the territorial 
success that the coalition has had and the shrinkage of the 
caliphate--not by any means, whatsoever. In fact, destroying 
the physical manifestation of the caliphate is also a pre-
condition for undermining the ISIL narrative--for getting at 
and exposing the lie behind ISIL's social media outreach to try 
to motivate people in the ways that Secretary Johnson and 
Director Comey talked about.
    So, I think of it as a timeline, where the effects we are 
looking to see are, simply, going to be delayed or lag behind 
the physical progress on the battlefield. It is not surprising. 
It puts us in a period of sustained vulnerability that I do not 
think any of us are comfortable with. But, I think it is a 
reality.
    Chairman Johnson. Do you not agree that a year or 2 years 
from now--and if they still control territory--they still have 
Raqqah--we will, probably, be making the same statement that we 
have not reduced their global reach and their terrorist 
capability, because they have spread--they have set up--whether 
it is in Libya or some of these other affiliates? I mean, they 
have to be destroyed. We cannot just nibble around the edges, 
here.
    Mr. Rasmussen. If we are sitting here a year from today, I 
hope we are in a position to say that we have put, 
considerably, more pressure on that component of ISIL that 
focuses on external operations--on deploying these operatives 
overseas--and that we will have done a great deal more work by 
that time, a year from now, to rip apart that network and to 
render it less capable.
    Will we be at the end of that effort? I do not know that I 
can predict that.
    Chairman Johnson. To talk a little bit about the diaspora 
that, I think, is already occurring--certainly, I am concerned 
about the potential of ISIL operatives coming into the United 
States. But, when I take a look at the level of risk--whether 
it is through refugees, through the Visa Waiver Program, or 
through an incredibly porous Southern border, I would say that 
I am most concerned about our porous border. And, Secretary 
Johnson, I just want to talk a little bit about the latest 
statistics on unaccompanied alien children (UACs) and family 
units.
    In 2014, we held hearings--and, in the news media, we were 
talking about this surge--this humanitarian crisis. In 2014, 
there were 68,000 unaccompanied children that crossed the 
border. So far, in 2016, we are up to 54,000. In terms of 
family units, back in 2014, there were about 68,000 family 
units. We are already at 68,000, with a month to go.
    So, we have, certainly, gotten more efficient at 
apprehending, processing, and dispersing. Let us face it. A lot 
of them just turn themselves in. My concern is--because we have 
not stopped the flow or reduced the flow--because we still have 
enormous incentives for people to come into this country--we 
have not succeeded in doing that. I am concerned about the 
diversion of resources on the border--having to take care of 
what remains, I think, a humanitarian crisis. Again, hats off 
to your Agencies. The Agencies have gotten better at handling 
it, but we have not stopped the flow. Can you just kind of talk 
about the concern you have, in terms of the Southern border 
being diverted--still working on these problems?
    Secretary Johnson. Yes, sir. The underlying ``push 
conditions'' in Central America still exist. The poverty and 
the violence in Central America still exist. In fiscal year 
(FY) 2015, the numbers of those apprehended on the Southern 
border went down, considerably. In fiscal year 2014, the total 
number was about 479,000. And, in fiscal year 2015, it was 
about 331,000. My projection, for fiscal year 2016, is that we 
will come in at around 407,000 to 408,000 people apprehended on 
the Southern border. That is a fraction of what it used to be, 
but it is still too high.
    And, you are correct, Chairman, in that we have gotten 
better at processing the UACs, in particular, on the front end. 
We have added resources. But, the ``push factors'' still exist.
    I am concerned about what we refer to as the ``special 
interest alien'' that comes from the other hemisphere and who 
turns up on our Southern border. We do not see this very often. 
It is a very small percentage of those who are apprehended on 
our Southern border--people who are coming from the Middle East 
region. We, now, have in place systems to almost immediately 
investigate that person, when we apprehend them. I have put in 
place a working group within my Department, over the last 
several months, to work with the law enforcement components of 
other governments, in Central and South America, to interdict 
these people--before they get to our border--and to share 
intelligence about what we are seeing. The smuggling 
organizations that focus on migrants from the Middle East are a 
relatively limited number. And so, what we are doing--and what 
I want to do more of--is focus our law enforcement efforts on 
cooperating with the law enforcement agencies of Central and 
South American governments, to break these organizations up.
    You began your question by referring to migrants from the 
other hemisphere. And, I think that that is a very legitimate 
concern--and we are focused on it.
    Chairman Johnson. Senator Carper.
    Senator Carper. How much time do I have, Mr. Chairman?
    Chairman Johnson. Seven minutes.
    Senator Carper. Thank you.
    I have a couple of ``yes'' or ``no'' questions, Secretary 
Johnson, which I would like to ask you, if I could. Last week, 
at a hearing in the House of Representatives, there was some 
confusion about whether the Department's Office of Community 
Partnerships is being guided by a strategy. I just want to ask: 
Does the Office of Community Partnerships have a strategic 
plan?
    Secretary Johnson. We have a plan, though----
    Senator Carper. And, my second question is: Can you present 
that plan to us, say, sometime in the next week?
    Secretary Johnson. I have given the Office a deadline for 
giving Congress a plan. I believe that the deadline I gave them 
was sometime in the month of October. So, you will have that 
plan in the month of October.
    Senator Carper. All right. Thank you.
    Sort of following up on that, one challenge that we face, 
with stopping homegrown terrorism, is that, as we hear, it is 
no longer, solely, a law enforcement matter. We simply cannot 
arrest our way out of this problem. Stopping homegrown attacks 
means that we must focus on stopping Americans from becoming 
violent extremists in the first place--and the Department of 
Homeland Security's Office of Community Partnerships has taken 
up the difficult task of building relationships with 
communities, in order to prevent the recruitment of Americans 
by terrorists. It is a new Office. It is a new Office with a 
very tough job. And, with that said, we cannot put all of our 
eggs in one basket.
    This is a question for each of you. We will start with you, 
Mr. Rasmussen. What are each of your Agencies doing to prevent 
the recruitment of Americans by terrorist groups, like ISIS? 
What else can and should we be doing? Everybody realizes--and I 
love your analogy, Director Comey, about squeezing ISIS--and 
some of these guys are slipping out through our fingers and 
going to other places. But, how do we better ensure that they 
are not successful, as they slip out to other places, including 
the United States. And, maybe, more importantly, that they are 
not successfully radicalizing--even from afar--the folks that 
are here, in the United States? Please.
    Mr. Rasmussen. Thank you for the question, Senator Carper. 
NCTC plays two primary roles in our efforts to counter violent 
extremism--and, particularly, our efforts to prevent terrorist 
recruitment, particularly of American--U.S. persons. First of 
all, we provide the analysis that underpins much of the 
community's effort, trying to understand the process of 
radicalization, the way in which individuals succumb or find 
themselves vulnerable to this particular poisonous version of 
extremist ideology. And so, that analytical understanding helps 
inform the strategy and policy efforts that Secretary Johnson's 
task force is leading, at the Department of Homeland Security. 
So, there is that baseline analytical work that we are doing to 
support the strategy and policy work.
    Beyond that, though, I have officers from NCTC, who are 
practitioners in this area and are serving on the task force at 
DHS. We were happy to make our contribution--of our share of 
the interagency kind of quota or tax--of officers to contribute 
to this effort. I only wish we had more experts that I could 
send over to Jeh's team to do more. I think this is a 
capability area that we are trying to grow, inside the Federal 
Government. We have some really strong expertise. But, I think 
we need to build more of it--and that starts with my 
Department, in the first instance.
    Senator Carper. All right. Thank you so much.
    Director Comey, the same question.
    Mr. Comey. We have two main responsibilities, in that area. 
The first, is, obviously, it is our job to try and find those 
who may be headed in that direction--from consuming poison to 
acting on it. So, that involves building a complex and very 
productive set of relationships with communities, teachers, and 
religious leaders. And then, also, in the online space, making 
sure we have the sources and the undercovers in place, to see 
those who might be going from consuming to violence.
    Senator Carper. My sense is, we are doing a lot better in 
the online space--a lot better.
    Mr. Comey. We are, in one sense. We are not, in another 
sense. We are making good progress, with the help of companies, 
like Twitter, at chasing the ``Islamic State,'' so-called, off 
of that space. The challenge is, we have chased them to a place 
where they are less able to proselytize, broadly, but more able 
to communicate in a secure way--chased them to applications 
like Telegram. And so, our mission is to try to get into those 
spaces, to see what those thugs--those savages--are talking 
about, in that space. That is our primary responsibility.
    But, we are also working with NCTC and DHS. We have a lot 
of indicators of mobilization to violence, because we have 
worked, literally, thousands of cases. And so, part of our job 
is to supply our partners, in the government, the State, and 
local law enforcement, as well as teachers and religious 
leaders, with the indicators of someone headed in that 
direction, so there can be appropriate disruption.
    Those are our two responsibilities.
    Senator Carper. Thank you.
    Secretary Johnson, the same question. Could you talk 
further about what the Department of Homeland Security is doing 
to prevent the recruitment of Americans by terrorist groups, 
like ISIS? And, what else can and should you be doing--maybe, 
with our support?
    Secretary Johnson. We have done a lot, in my judgment, to 
build bridges, to certain communities in this country, through 
our engagements, which include the FBI and which include local 
law enforcement. In my view, where we need to do a lot more is, 
not only to chase these groups off of the mainline Internet, 
but also to help Muslim leaders--community leaders--build the 
countermessage. And so, I would like to see a greater 
partnership between community leaders and those in the 
technology sector, who are willing to do this--partner to 
develop that positive countermessage. It exists at some level, 
but it needs much greater amplification. I think we are off to 
a good start.
    The other thing I will say is that I am very pleased that 
Congress, for this fiscal year, gave us some grant money for 
CVE. It is only $10 million, which does not go very far. We 
need to do a lot more of that, in the future. We are going to 
be making some grant awards, before the end of the calendar 
year, with that money, but we need more of that. I think that 
is a critical part of the future.
    Senator Carper. When ISIS was rolling through Iraq, like 
Sherman through Georgia, they were robbing banks, taking over 
oil fields, and really building quite a financial presence--
quite a treasury. My understanding is that their ability to 
attract money from those oil operations is greatly diminished. 
We have, actually, attacked places where they were hoarding 
actual cash and destroyed it.
    It is one thing to defeat ISIS on the battlefield--and we 
are doing that. It is another thing to engage them on social 
media. It sounds like we are doing that, I think, fairly 
effectively.
    The other thing that is out there that we have not talked 
about is: how do we undercut and take away their financial 
ability--their financial resources to help fund operations 
around the world--and what are doing in that regard?
    Mr. Rasmussen. Senator, I think the very way you framed the 
question highlighted some of the ongoing work we have 
undertaken to put pressure on ISIL's ability to raise finances. 
The coalition military campaign has prioritized, all along, the 
effort to go after ISIL's capacity to exploit Iraq and Syria's 
oil resources. That becomes a recurring business, because, in 
many ways, they can reconstitute. Sites are struck. ISIL-
affiliated individuals end up with work-arounds, and then they 
end up being back on the target list, because it is, literally, 
an ongoing effort.
    At the same time, we have also worked with the Iraqi 
Government to constrain the ability--or the flow of Iraqi 
Government funds into ISIL-held territories, through payment of 
salaries and what-not, which the Iraqi Government was engaged 
in, during some periods of the occupation of major cities. 
That, again, has shrunken the amount of money available to 
ISIL.
    As you rightly noted, some of the sources of income that 
ISIL has are now non-recurring. And so, it is a pie that will 
continue to shrink, over time. But, again, one of the things we 
have also learned about terrorist organizations is, it does not 
always take a massive amount of money to fund the terrorist arm 
of the organization. The resource-intensive bit of ISIL's 
program was running the caliphate--delivering goods and 
services to Iraqis and Syrians on the ground, inside of the 
caliphate. The bit of business that involves deploying 
operatives overseas or recruiting operatives to send overseas 
is not, necessarily, the most resource-intensive part of what 
they do.
    Senator Carper. Thank you very much.
    Chairman Johnson. Thank you, Senator Carper.
    Again, I want to be very respectful. I truly appreciate the 
fact that we have so many Members here. I want them all to get 
a chance--giving 7 minutes--so I just ask the Members and the 
witnesses to watch the clock. If there is a question like 
that--and both of us ran over. If there is a question at the 
very end, we will just ask for the answer to be written--just 
like we do written questions, after the hearing.
    With that, it is Senator Paul.

               OPENING STATEMENT OF SENATOR PAUL

    Senator Paul. Thank you. One common attribute shared by 
many of the recent attacks has been that they were previously 
investigated by the FBI, and they were found not to be credible 
threats. This would be true of the Boston bombers, the 
underwear bomber, the Garland, Texas shooter, the Orlando 
killer, and the most recent New York bomber.
    We are all fallible, and I am not here to say, ``Gosh, the 
FBI is terrible, because it missed these things.'' But, I am 
also troubled that the FBI is unwilling to even admit that they 
may have made some mistakes. Every time these come up, what I 
hear from the FBI is, ``Oh, no, we made no mistakes. We did 
exactly what we should have. And, our conclusion was right, 
given the information.'' Well, these are judgment calls, and 
the judgment calls were incorrect. And so, I think we should at 
least admit that, and then look at some of the facts.
    I am also troubled that the FBI continues to ask for more 
power, instead of saying, ``Well, maybe, we could use our 
current powers more efficiently and effectively.'' And, I will 
give you, I guess, an example.
    Omar Mateen, the Orlando killer, was investigated for a 
couple years--say we cannot find enough information. Internal 
policies caused you to end the investigation. There was no law 
saying that you had to stop it. Maybe, we should talk about 
whether or not the FBI's policy should change--about how long 
you keep an investigation open.
    Mateen goes into a gun store. The gun store owner calls 
you. The FBI shows up. FBI does not get the security footage. 
Well, I mean, local policemen, in my hometown, know to get the 
security footage. Everybody does it. That is the first thing 
you do in any kind of potential crime scene.
    Could we not have taken the security footage, matched it 
with, let us say, how many terrorists live within--terrorist 
suspects live within 50 miles of that gun store? I do not think 
we are talking about thousands of people. We might be talking 
about 20 people. Could we not then present a list and pictures 
of the 20 people that we have, as suspects, to the gun store 
owner? Could we not try to match them with the security 
footage?
    We went back for the security footage weeks later, and it 
had already been erased. Let us admit these were mistakes. I am 
not even saying that we should hang somebody out to dry. Let us 
just admit that we are not perfect and we made mistakes, here, 
because, if we do not admit to mistakes, we are not going to 
get better.
    So, one concern is the length of the investigation. Should 
we have longer investigations? Are you changing any policy? Or, 
are you going to tell us, ``We made no mistakes, and it is just 
one of those things? ''
    And, with regard to opening investigations, I have asked, 
repeatedly: Why did you not get a warrant? Why did you not do 
this? Why are you closing the investigation? And, I hear and 
read that the FBI's own internal rules say that you have to 
have probable cause to open an investigation. Well, that sounds 
to me above and beyond the Constitution. And, I am a stickler 
for privacy and probable cause. But, to investigate something 
does not--I would not think it requires probable cause to open 
an investigation.
    So, I think you have all kinds of tools that, maybe, we are 
not using, adequately. And yet, there seems to be a great deal 
of lobbying, by the FBI, for new powers: for getting new third-
party data, for getting new meta data, for new rules on 
encryption, for banning technology, and for trying to get 
involved with technology, when, in reality, I think we need to 
admit, maybe, there are some problems in our current 
investigation practices--also acknowledging that we are 
fallible and that we all make mistakes--and that you cannot be 
perfect and things will slip through. But, I think to say, 
``Well, we said these people were not credible threats, but we 
did not make a mistake. They just were not''--well, they were 
credible threats, repeatedly. And, when a parent says, ``My son 
is a terrorist''--as a parent, I can tell you that is a pretty 
hard thing to do--that, maybe, we should try a little harder. 
The most recent guy was in jail, and they said, ``Well, we did 
not investigate him. He was in jail.'' Well, we never even 
prosecuted him, which is a whole other criminal justice issue. 
You do not get prosecuted for stabbing your brother. But, the 
thing is, if he had a lawyer at the time, you should have at 
least requested--maybe the lawyer says, ``You cannot talk to my 
client,'' but someone should have asked. He gets out of jail 
after 3 months. He is never prosecuted. Nobody ever follows up.
    I think there is a lot of public information you could have 
looked at. I think there is no reason why you could not open an 
investigation. And, the standards get much lower when the 
investigations are opened. The standard for the Foreign 
Intelligence Surveillance Court (FISA) warrant is not probable 
cause. It is: ``relevant to an investigation.'' We can argue 
about that standard, but that is the current standard. I just 
do not think we are, necessarily, using our tools adequately. 
And, I think it is important to admit when we make mistakes, so 
we can improve our technique. And, I guess, my question to 
Director Comey is: Is it your position that no mistakes were 
made, in each of these instances, in judging them not to be 
credible threats? Would you not have done more to address the 
situation in the gun store that Mateen went into 6 weeks before 
the shooting? Would you not have done more--when Rahami was 
arrested--to question him, because his dad said that he was a 
terrorist?
    Mr. Comey. Thank you, Senator. Sitting before you is a 
deeply flawed and fallible human being, who believes very 
strongly in admitting mistakes when they are made. I hope you 
saw the very painful moment, when I admitted, publicly, we made 
a mistake in allowing Charleston, South Carolina shooter, 
Dylann Roof, to get a gun. So, as long as I am Director of the 
FBI, we will stare back, very carefully, at what we do. And, 
where we make mistakes, we will admit them. We will be 
transparent, and we will get better.
    As you know, I hope, I commissioned a lookback at our 
investigation of the Orlando killer, which is just being 
completed, now. And, the Inspector General (IG) is going to do 
another one, which is great, because, if there is learning 
there, we are going to squeeze it for all of the learning we 
can get--and get better.
    Senator Paul. But, what is your opinion on the gun store? 
Should we have done more on the gun store?
    Mr. Comey. Your facts are wrong there.
    Senator Paul. Excuse me?
    Mr. Comey. Your facts are wrong there. The gun owner did 
not call us contemporaneously. When we were contacted and went 
back to the store, it was in the weeks afterward, and so the 
video was not available.
    Your facts are also wrong, with respect to what the bomber 
in New York--who is still alive, and is going to have a trial, 
I hope, and be sentenced to jail for the rest of his life--so I 
want to be careful what I say. Your facts are wrong about what 
his father told the FBI. But, there, as well, we will go back 
and scrub our prior contact with that matter very carefully--
and maybe the Inspector General will as well--which would be 
great as well. And, if there is the potential for learning, we 
will learn from it. We are not perfect people. We aspire to be 
perfect, because we think that is what the American people have 
a right to expect. But, you will find us being very candid 
about our shortcomings and our strengths.
    Senator Paul. With regard to length of investigations and 
your internal policy on having probable cause to open 
investigations?
    Mr. Comey. That is just wrong as well. We do not need a 
probable cause to get a search warrant or to get a wiretap. 
And, I want to correct something else that you said. You need 
probable cause to get a FISA warrant from a FISA judge. To open 
our investigations, the threshold is much lower. We open 
assessments based on just tips. Then, we open preliminary 
investigations and full investigations on much lower 
thresholds, because you investigate to see if there is probable 
cause.
    Senator Paul. So, should we keep our investigations open 
longer?
    Mr. Comey. We should keep them open as long as the facts 
warrant keeping them open--and there is no restriction. As you 
saw, in Orlando, that preliminary is, normally, set for 6 
months. It can be extended another 6 months, and another 6 
months, and another 6 months. We have the policies and the 
tools, by and large, that we need to do this well, which is why 
we need to look back at each case and say, ``So what did we do? 
Who did we interview? What documents did we get? And, how could 
we do this better?''
    Senator Paul. But, that would be the judgment call. Should 
we keep them open longer?
    Mr. Comey. Sure, and that judgment has to be made, every 
day, by professional agents, with the review of their 
supervisors.
    Chairman Johnson. Senator McCaskill.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. Thank you, Mr. Chairman. Thank you all 
for being here.
    I will have a number of questions for the record about 
bioterrorism funding and BioWatch as well as retaliation in the 
Transportation Security Administration (TSA). I am very 
concerned about those issues, especially, since Admiral 
Neffenger said that there had been no actions taken, in regards 
to the TSA whistleblower retaliations--and that does not match 
what has been reported publicly--and I am trying to figure out 
what the facts are.
    I want to spend a few minutes talking about prevention, 
Director Rasmussen. Prevention is really hard. As somebody who 
has spent a lot of time in law enforcement, I know it is hard 
to quantify when you are successful and it is incredibly hard 
to do it on a performance basis, knowing what is working and 
what is not. But, I think all of the experts agree that one of 
the key foundations to the prevention of the radicalization of 
lone wolves in this country is, in fact, having cooperation and 
working relationships with the American Muslim community. Would 
you agree with that assessment, Director Rasmussen?
    Mr. Rasmussen. Absolutely. And, that is why, what I alluded 
to, in my response to Senator Carper's question, is that the 
officers I have that are working alongside Jeh Johnson's 
professionals, in this area, are doing exactly that. They are 
practitioners, out engaging with Muslim communities around the 
country, to exactly the ends that you described.
    Senator McCaskill. So, the vilification of the Muslim 
community, in this country, is very counterproductive to the 
most essential piece of our prevention efforts to combat the 
biggest threat we face, which is the radicalization of lone 
wolves--which is akin to looking for the veritable needle in a 
haystack. Correct?
    Mr. Rasmussen. Again, to reiterate, there is no question 
that we need a cooperative, engaged, and productive partnership 
with Muslim communities--not just with Muslim communities, but 
with communities at large, as we deal with the challenge of 
lone wolves.
    Senator McCaskill. In that light, Director Comey, we have 
had a number of arsons at mosques across the country. Is there 
an effort that is beyond--I was an arson prosecutor a long 
time, so I know about the great work of the Bureau of Alcohol, 
Tobacco, Firearms and Explosives (ATF). I know about the 
capabilities we have now, in terms of the technical ability to 
determine arson. Are you comfortable that all of the resources 
of the law enforcement community and the Federal Government are 
being used in a display to the good, patriotic American 
Muslims, whose places of worship are being burned out of the 
misplaced prejudice and vilification of a certain religion?
    Mr. Comey. I am.
    Senator McCaskill. And, is there a cooperative effort 
between both the FBI and the ATF as well as local law 
enforcement, in that regard?
    Mr. Comey. Yes.
    Senator McCaskill. Is there a team approach?
    Mr. Comey. Yes, we work very well together on those cases 
and many others.
    Senator McCaskill. Secretary Johnson, when someone, who is 
on the ``terror watchlist'' and who believes that they are on 
the ``terror watchlist'' erroneously, tries to buy an airline 
ticket, do they have to, sometimes, miss their flight?
    Secretary Johnson. I can imagine that happening. Yes, very 
definitely, ma'am.
    Senator McCaskill. So, it might be that they have to go 
someplace very important, and they are not allowed to get on an 
airplane. Correct?
    Secretary Johnson. Correct.
    Senator McCaskill. But, there is a process that they can 
then use to get a review of their being on the list. Correct?
    Secretary Johnson. There is an adjudication process to get 
off of the list, yes.
    Senator McCaskill. And, approximately how long does that 
adjudication process take, on average?
    Secretary Johnson. For the overwhelming majority of cases, 
where it is a matter of mistaken identity, it is pretty quick. 
I think it is just a matter of days or weeks.
    Senator McCaskill. But, in the meantime, they have been 
inconvenienced.
    Secretary Johnson. Very definitely, yes.
    Senator McCaskill. And, if we had the same process for 
someone buying a gun, they would be inconvenienced, but, rather 
than missing a flight to an important meeting or to the funeral 
of a loved one, they would be missing out on owning a gun for 2 
weeks?
    Secretary Johnson. Correct.
    Senator McCaskill. And, is there any reason that we cannot 
put into the process a way to add those people to a database 
that would flag, at the point of purchase, anybody who is on 
that list--in terms of them being inconvenienced--by delaying 
their purchase for a few weeks? Is there any reason, either 
Secretary Johnson or Director Comey----
    Secretary Johnson. Senator, in my judgment--consistent with 
the Second Amendment and consistent with a responsible gun 
owner's right to own a gun, we should give the Attorney General 
added discretion to deny a gun purchase to somebody who meets 
certain parameters, similar to the parameters for the ``no-fly 
list'' or the ``terrorist watchlist.'' So, the answer to your 
question is yes, in my judgment. As a matter of homeland 
security, I think this is something we need to do.
    Senator McCaskill. Do you think that would be more 
effective? I mean, I think, after the fact, it is very easy to 
say that we should start grabbing surveillance tapes in gun 
shops. Can you imagine the hue and cry if we started grabbing 
surveillance tapes in gun shops without having probable cause 
of a crime being committed? I mean, you think the National 
Rifle Association (NRA) is up in arms about wanting to make 
sure that we do not inconvenience anyone that is on the 
``terrorist no-fly list'' for a couple of weeks. Can you 
imagine what the reaction would be, if we started, 
unilaterally, seizing purchase videos in gun shops? I mean, do 
you think, Director Comey, that is something that the FBI would 
even be comfortable doing without probable cause or without 
some reason to believe a crime has been committed?
    Mr. Comey. We do not seize anything, except pursuant to 
law. So, we would not be comfortable in doing anything outside 
of that construct.
    Senator McCaskill. So, I guess the purpose of this line of 
questioning is, I do not get why we are having a long hearing 
on the danger of terrorists, in this country, when we cannot 
even take the baby step of saying that someone, who is going to 
be inconvenienced by missing a flight, cannot have the same 
inconvenience for buying an AR-15, which can kill a number of 
people in a short period of time--even when that person is on 
the same list. It is, I think, frankly astounding to me. And, I 
was really pleased to see, last night, that both Presidential 
candidates agree. So, I am hopeful that the people, who have 
refused to vote for this, in this body and on this Committee, 
will take another look at it. Because, I think, we can pound 
our chests about how long you are investigating people or 
second-guessing the factual determination that goes into 
probable cause as well as argue for seizing the videos of gun 
shops. But, I just do not know how we can, with a straight 
face, say that we are serious about this, without taking that 
important step.
    I will say that I was in Jordan, looking at the screening 
procedures. I know that both of you were involved in your 
Agencies, Director Rasmussen and Director Comey, and I was 
astounded at how detailed the screening interviews and 
processes were, on the ground, in Syria. And, I was much more 
comfortable about that than the Visa Waiver Program. And, I 
made it. Look. I made it.
    Chairman Johnson. I certainly appreciate that.
    Senator McCaskill. You did not even have to yell at me.
    Chairman Johnson. I appreciate it. I will say that the 
answer to your question is, because terrorists kill people with 
knives, homemade bombs, and trucks. That is why. Senator 
Ayotte.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. Thank you, Chairman. I want to thank all of 
you for your service to the country.
    Director Comey, I wanted to follow up on one of Senator 
Paul's questions, and start with this, in terms of the Mateen 
situation, in Orlando. I understand that he was interviewed 
twice by the FBI, and then the inquiry was closed. Is that 
true?
    Mr. Comey. Yes. He was interviewed twice during a 10-month 
or 11-month investigation. Then, the preliminary was closed.
    Senator Ayotte. So, in that investigation, was there any 
work done to see what he was doing online? In other words, you 
interviewed him in person. Was there anything looked at, to see 
what he was doing online?
    Mr. Comey. As I understand it today, there were no search 
warrants for the content of any of his devices or for the 
content of his held by a service provider.
    Senator Ayotte. I guess my question is, there is even work 
you can do without a search warrant--just publicly. Was 
anything done to see whether he was saying anything online--or 
doing anything--without going and getting a search warrant, at 
that point?
    Mr. Comey. In public? Like public postings on social media?
    Senator Ayotte. Public space. Did the FBI do anything?
    Mr. Comey. I do not know the answer. I do not think so, at 
this point.
    Senator Ayotte. OK. So, one of the things that--as I 
understand, too, from what I have heard, in prior briefings--
that was not done. And, as I look at the situation, one thing 
that I would assume that we would do, in every investigation--
even before we got to the level of looking for content--is to 
see if there is anything, in the publicly available space, that 
individuals you are following up on may be saying about 
terrorism--about any extreme figures. Would you agree that that 
would be a natural step, in an investigation?
    Mr. Comey. Maybe. And, maybe, that is one of the things we 
learned from our lookback. It would depend upon the 
investigation. This one had two sources, who were speaking to 
him, including taping conversations with him. So, I think the 
case agent thought they had a pretty good vector into his state 
of mind.
    Senator Ayotte. Well, I guess my question goes to whether 
there are lessons learned and whether everything was done well, 
in Orlando. This one seems obvious to me--that, when you have 
an individual, who has made some extreme statements--you are 
interviewing them--we know also that you tried to verify, 
through secondary means. But, it just seems surprising to me 
that there was not some kind of online work done, for something 
so significant. So, that, to me, is of deep concern. I hope you 
will give us a report of exactly what was done--or not done--in 
that instance.
    One of the things that I know is important to the FBI--
because you have testified before other Committees--is wanting 
the authority--what is called the electronic communications 
transactional records (ECTR) fix. Can you explain the 
significance of that, to this Committee--and why it is 
important? Because, having been a prosecutor before this, I can 
assure you that, in your basic child pornography case--Internet 
predator case, I was able to get these types of records. And, 
tell us how you are being limited, right now--and why you need 
us to fix it.
    Mr. Comey. Sure. For many years, we were able to issue 
national security letters (NSL), which were issued in our 
national security, counterintelligence, or counterterrorism 
cases for telephonic transaction records and Internet 
transactions records--not the content of people's calls or 
their emails, but the Internet Protocol (IP) addresses involved 
and who they communicated with on the Internet and by 
telephone.
    Several years ago, lawyers for some Internet service 
providers started to interpret the statute to say that, if you 
read the language, it actually--through what I think was a 
mistake--should not allow you to use a NSL to get transaction 
records on the Internet, where you can get them on telephone, 
and interpreted that way. The fix that we think--because we 
think Congress intended to allow us to use NSLs in both 
circumstances--is needed is to allow us to get non-content for 
telephone transaction records and Internet transaction records.
    Senator Ayotte. And, you would agree that this is a very 
common tool in criminal cases--just average criminal cases--
where you are not getting content, but you are, actually, in 
many instances, issuing a subpoena to get the basic electronic 
records. And, it seems absurd to me that we cannot make that 
basic fix that only failed the Senate by one vote. So, I hope 
we can get you that authority.
    I wanted to also follow up on the most recent case, where 
Mr. Rahami has been arrested. And, in that instance--I know 
Senator Paul had asked you about that, but one thing is--what 
the public reports of what is out there. It is my understanding 
that he was actually flagged by the Department of Homeland 
Security after he arrived back from Pakistan--and notified by 
the National Targeting Center (NTC), based on when he was 
stopped at the airport. And, the National Targeting Center, as 
I understand it, is under the Department of Homeland Security, 
specifically, U.S. Customs and Border Protection (CBP). And, as 
a result of that, that information was passed on to the FBI.
    Later, in August 2014, Mr. Rahami's father makes some type 
of report of some connection to terrorism. And, at that point, 
that was also provided to the FBI. So, the reports are that he 
was never interviewed there.
    So, what I think we are trying to understand is, these are 
basic steps that, when you have someone traveling to Quetta, 
Pakistan--even if they have family members there--we know that 
is a hub of terrorism and a very dangerous place. And, that 
flag--and that travel history, combined, later, with a report, 
where a family member may have reported a potential tie with 
terrorism--and yet, there was not an in-person interview.
    So, can you help us understand? Do you have enough people? 
Is there some reason why he would not be interviewed? And, what 
are the things we need to learn from this? Because, obviously, 
we want to prevent it, in the first place. But, when something 
like this comes through your doors, we want to make sure it is 
followed up on, so that we can do all we can, with local law 
enforcement, to stop these things before they start.
    Mr. Comey. Thank you, Senator. I will, at some point, want 
to have that conversation. I do not want to have it, now, for 
two reasons.
    First, this is an active investigation. This guy is alive 
and entitled to a fair trial. And, I do not want to do anything 
that gives him an opportunity to claim we deprived him of that 
right.
    And, second, I do not know yet. We are going to go back and 
look, very carefully, at the way we encountered him. And, we 
will find the appropriate forum to be transparent about what we 
did well, what we could have done better, and what we have 
learned from it. We have not done that work yet, because we are 
doing an active investigation. So, I do not want to comment in 
this forum, beyond that, right now.
    Senator Ayotte. Well, I appreciate that. But, I think this 
is a really important question for all of us. First, do you 
need different legal authorities? Second, do you need more 
agents? Third, was it a case of something being missed, that 
this individual was not interviewed, despite these flags? If we 
look at the Orlando situation and if we go back to the Boston 
Marathon bombers, Tsarnaev brothers--each one of them--putting 
them together--what more do we need to do? What are the lessons 
learned? And, if you need additional support, we need to know 
about it very quickly.
    Thank you.
    Chairman Johnson. Senator Tester.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Thank you, Mr. Chairman. I want to thank 
each one of you for being here, today. And, thank you for the 
work you do. And, a special thank you to you, Jeh, since this 
is your last time in front of this Committee.
    Jeh, you brought up support for State governments on 
election tampering. Could you give me an idea on how prevalent 
this is by foreign governments?
    Secretary Johnson. We are seeing a limited number of 
instances, where there have been efforts, through cyber 
intrusions, to get into the online presence of various State 
election agencies. And, one or two of them have been 
successful--others have not. But, more broadly, just in the 
general environment, Senator, that we are in, where we have an 
increasing level of sophistication with nation-state actors, 
``hactivists,'' and so forth, we have been out there saying to 
State election officials, ``If you need help, just ask us for 
it.''
    Senator Tester. So, they are getting into the databases and 
changing the votes? That is what they are doing?
    Secretary Johnson. No. No, that is not it. The matters are 
under active investigation. I think there is a limited amount 
we can say.
    Senator Tester. OK.
    Secretary Johnson. But, what we are seeing are efforts to 
get into voter registration rolls and get the identity of 
registered voters--things of that nature--not to change a 
ballot count.
    Senator Tester. OK. And, change votes----
    Secretary Johnson. Not to change votes, no.
    Senator Tester. No, but to change it, so a person, who 
would normally be registered, would not be registered, then? Is 
that what we are talking about? Or, to register people who are 
not registered?
    Secretary Johnson. I cannot say that.
    Senator Tester. OK.
    Secretary Johnson. No, I cannot say that.
    Senator Tester. Alright. And, is this coming from one 
particular country?
    Secretary Johnson. I do not believe that we have reached a 
determination of that nature, to that extent.
    Senator Tester. OK. We talk about the Southern border a 
lot. I always talk about the Northern border.
    Secretary Johnson. Yes, you do.
    Senator Tester. And, I want to talk about that, for a 
second, in the arena of communications. We have been told, by 
folks who work under you, on the ground, on the Northern 
border, that there are gaps in communication on the Northern 
border. Are you aware of those gaps? First, are you aware of 
those gaps in communication? Do they exist?
    Secretary Johnson. It is something that I have heard about, 
and I know you have an interest in this. Frankly, I would not 
be surprised if there were some level of gaps in communication 
that should not exist.
    Senator Tester. Right. And, I guess the next question is, 
then: If you do have gaps--which is not unreasonable, but it is 
something we need to work on, though, to get it fixed--do you 
have work-arounds on those gaps, through local law enforcement, 
highway patrol, or municipal sheriff departments--whatever it 
might be?
    Secretary Johnson. I would have to get back to you on that, 
Senator.
    Senator Tester. Could you check on that? Because I think 
that that is--if we have dead zones on the Northern border, 
that is a particular problem and a concern that, quite frankly, 
is pretty basic. And, if you could find out and just let me 
know, that would be great.
    Secretary Johnson. Sure.
    Senator Tester. I want to talk a little bit--since this is 
your last meeting, Jeh--about DHS. DHS is a behemoth of an 
Agency. It is massive, and you have done a masterful job, in 
your job, there. I think you report to a number of Committees. 
I think, maybe, 119 Congressional Committees and 
Subcommittees--119.
    Secretary Johnson. Depending on how you count, yes, sir. 
[Laughter.]
    Senator Tester. Yes. Well, I count in base 7, so there may 
be less than that. Or, there may be more.
    Secretary Johnson. I love Congress.
    Senator Tester. Do you have any ideas--I mean, I cannot 
imagine--first, from an accountability standpoint, it does not 
make much sense to me, because, how can this work? And, second, 
do you have any actions that you think Congress could do, on 
your way out, that would make you all more accountable and, 
quite frankly, more functional?
    Secretary Johnson. Well, first, we have, actually--
notwithstanding the number of Committees and Subcommittees--we 
have actually reduced the amount of time it takes to respond to 
a Congressional inquiry, pretty significantly, since I have 
been Secretary. And, we do spend a lot of time responding to 
requests. I will say that I read every letter from a Member of 
Congress that comes in. About half of them are from the same 
two people. No names mentioned, here.
    Senator Sasse. You are welcome.
    Chairman Johnson. It is called oversight.
    Secretary Johnson. You are not one of the two. No, sir. 
[Laughter.]
    The real problem with having so many Committees--being 
divvied up among so many Committees, it is very tough to get 
any kind of comprehensive authorization of our activities 
through Congress. That is the real substantive problem with 
having so many Committees of oversight.
    Senator Tester. Is there a solution to that? Should we just 
give it to this one and be done with it?
    Secretary Johnson. I would say--look, in a perfect world, I 
would say that there should be one oversight Committee for 
authorization and one Committee for appropriations--just like 
in my Department of Defense days. We had the Senate Armed 
Services Committee (SASC) and we had the Senate Appropriations 
Committee--and that was it. And, if I appeared before any other 
Committee, I got in big trouble.
    Senator Tester. OK. And, this is for both you and for Jim 
Comey. Canada has changed its policy for Mexicans traveling up 
to Canada. And, there is not much we can do about that. It is 
between those two countries. But, this policy--and I think I 
sent you a letter on it. In fact, I know I sent you a letter on 
it. And, I think you responded to it, and I appreciate that you 
read it. Has this changed our posture at all toward the 
Northern border, because of the potential appearance of 
loosening travel restrictions?
    Secretary Johnson. It depends on how they arrive into 
Canada. If it is by air, that is one thing. If it is on land, 
that is another.
    I will say that we are building information-sharing 
agreements with the Government of Canada, so that we have a 
better sense for who is coming and going across our border into 
Canada. And, I think we need to keep moving in that direction.
    Senator Tester. OK. The last thing, because it has been 
claimed here a couple times--do you see yourselves as only 
playing defense?
    Secretary Johnson. That is an interesting question. When I 
was at DOD, signing off on a lot of targeted lethal force, as 
consistent with law, I suppose I was on offense. I think it is 
inherent, in the DHS mission, that we are on defense. But, I 
think it is also incumbent upon us to have an affirmative 
agenda for improving our mission and for how we do business. 
So, I have tried to do both.
    Senator Tester. Thank you all.
    Thank you, Mr. Chairman.
    Chairman Johnson. Senator Booker.

              OPENING STATEMENT OF SENATOR BOOKER

    Senator Booker. Thank you, Mr. Chairman.
    First and foremost, I just want to thank you all for your 
work. It is incredible, the dedication you all have. You are 
truly patriots to our country. And, obviously, what we all 
witnessed happening, in New Jersey and New York this past week, 
is a further affirmation of the quality of your commitment to 
the security of our homeland. And, I appreciate you saying 
earlier, Director Comey and Secretary Johnson, that this is a 
multiple-level commitment from local authorities as well as 
from State and Federal authorities, because, what we saw, the 
commitment amongst the Linden, New Jersey police officers, for 
example, who, literally, took fire from a terrorist--saved 
lives--I reached out to the two gentlemen last week. And, there 
is truly heroic work being done at every level of our 
government.
    Secretary Johnson, I have been very concerned and focused 
on issues of rail security. It is something that I feel we are 
not doing enough about, especially given the Northeast 
corridor. More people travel along the Northeast corridor, by 
rail, than they do on air travel. We have seen that the pipe 
bombs found in the Elizabeth, New Jersey train station were 
near Amtrak--New Jersey Transit, where millions of people ride, 
in the State of New Jersey.
    In 2007, Congress actually passed legislation requiring 
that TSA and other Agencies implement a number of 
recommendations that came out of the (9/11 Commission). Among 
them were several requirements for TSA to issue regulations 
that would provide direction to public transportation agencies, 
railroads, and bus companies on security training for frontline 
transportation workers.
    Since the passage of the legislation, there have been 
several critical events, from the Brussels metro bombing to, 
more recently--again, what we saw in New York and New Jersey--
near train stations. And, if you look at it from a larger 
perspective, since 2001, there have been more than 1,900 
attacks that have been carried out against transit systems, 
globally--resulting in thousands of deaths--about 4,000--and 
14,000 injuries.
    However, TSA, currently, has less than 800 full-time 
employees dedicated to protecting surface transportation 
assets, which is less than 2 percent of the Agency's workforce. 
If you just look at the proportion of what we are applying to 
air travel compared to surface travel, you see it is almost as 
if we are still fighting the 9/11 efforts and not really 
looking forward to what the attacks are that we are seeing, 
consistently, around the globe, today.
    I have been discussing this, with TSA status--have been 
writing letters about it. I hope I am not in your top two, but 
I definitely have been pushing this for some time. And, 
frankly, it is just becoming very frustrating to me.
    And so, I just want to ask very specifically: Can you 
please provide me with a very specific timeline on when TSA is 
going to finish its work on the 9/11 Commission's 
recommendations, Secretary Johnson?
    Secretary Johnson. Yes, we can get you that timeline.
    Beyond that, I will say that I am also a regular user of 
the Northeast corridor and of New Jersey Transit. And so, I am 
very familiar with rail security. Frankly, I believe that TSA's 
principal focus should continue to be aviation security, given 
the threat streams that we all see. That needs to be their 
number one priority. They do have the rail security mission as 
well, but, as you know, Senator, we have Amtrak police and New 
Jersey Transit police to support that mission as well. But, I 
would like to see us continue to develop that aspect of TSA's 
mission, so that we are in a better place.
    Senator Booker. I appreciate that, and I appreciate your 
commitment to get me a timeline. This is an issue of 
proportionality--2 percent going to surface transparency and 
90-plus percent going to aviation. At least in terms of 
proportionality, does it seem a little out of whack?
    Secretary Johnson. I would want to think about that a 
little bit more. Again, when it comes to rail security, we have 
other security forces out there supporting the mission. So, I 
would want to think about whether that is the right ratio or 
not. I continue to be concerned about aviation and airport 
security--and I believe that needs to be TSA's principal focus.
    Senator Booker. And, I am not arguing with that. Again, I 
look forward to getting the timeline.
    And, just really quickly, Director Rasmussen and Director 
Comey, do you believe that Rahami was part of a cell of other 
terrorists that were planning attacks?
    Mr. Comey. That investigation, as I said earlier, is open. 
We see, so far, no indication of a larger cell or the threat of 
related attacks.
    Senator Booker. And, it is interesting that you are seeing 
a spiking of violent extremism happening. Secretary Johnson--I 
appreciated his talk about the terrorist diaspora, like has 
never been seen before, as we win on the ground--continue to 
win on the ground in Syria and Iraq. Can you give me sort of 
more of an idea of why you think there is a spike going on? 
And, what are some of the root causes of this?
    Mr. Comey. For me, Senator?
    Senator Booker. Yes--either one.
    Mr. Comey. Well, at least what I was talking about, in 
terms of the terrorist diaspora, is, we know thousands--tens of 
thousands, by some measures--of fighters have flocked to the 
so-called caliphate. Many have died in battle there--and many 
more will die, as the caliphate is crushed. What I am talking 
about is the future that we have to focus on----
    Senator Booker. So, can you just hone in on 2015. There has 
been a spike, right? And so, this is not, necessarily, a result 
of the gains that we are making in Syria and Iraq. Do you have 
another understanding of why we are seeing a spike in 2015, 
and, seemingly, in 2016 as well?
    Mr. Comey. Well, we saw a spike, in the United States, of 
people moving toward violence, because ISIL started investing 
in their social media campaign, in 2014. It paid dividends, 
starting in the spring of 2015, where troubled souls started to 
flock to it, electronically--and be motivated to move to 
violence. We have made progress against that--against locking 
those people up--and disrupting some of that narrative. And so, 
the numbers have come down, slightly.
    Senator Booker. Thank you, Mr. Chairman.
    Chairman Johnson. Senator Baldwin.

              OPENING STATEMENT OF SENATOR BALDWIN

    Senator Baldwin. Thank you, Mr. Chairman.
    I also want to explore the--well, first of all, thank you 
for being here--appearing today--and for your work. I want to 
continue to explore what you talked about, Director Comey, with 
regard to sort of the impending terrorist diaspora, when the 
caliphate is crushed. In your testimony before us this morning, 
you talked about the fact that this is not an often-looked-at 
area, but that work is under way--and you assured us of that.
    I guess I would ask you and Director Rasmussen about, sort 
of what your early estimates are, of what that is going to look 
like, globally, and sort of the ``where, when, and who.'' I 
understand the things that are dependent--that we have to know, 
first, when we consider action on the ground to be concluded.
    But, I would like to hear what your early estimates are. 
And then, what sort of strategic changes we should look toward, 
domestically. What is going to be the impact of that diaspora, 
domestically? What sort of policy and resource implications 
does that have?
    So, realizing that we are not in a classified setting, tell 
us what you can about that work under way.
    Mr. Comey. Certainly, Senator. And then, Nick will both 
check me, and probably make the answer more thoughtful. But, I 
will take the first shot.
    Certainly, at least hundreds of fighters are not going to 
die in the coming crushing of the caliphate. The caliphate, as 
Nick Rasmussen has said and as Secretary Johnson has said, has 
been steadily losing territory. There is going to come a point, 
where it is going to be, essentially, crushed. I do not know 
exactly how to estimate that, over the next couple of years. 
Through the fingers of that crush are going to come some very 
bad people--a much larger diaspora than we saw, for example, 
out of Afghanistan after the mujahideen--the conflict with the 
Soviets that ended in the late 1980s.
    And so, the most important way to prepare for that is to 
knit ourselves together, especially with our European 
colleagues, because most of that flow is going to go up into 
Europe, from which it came. And so, there is a tremendous 
amount of work under way, including by the FBI, in making sure 
people are taking advantage of the data we have gathered, both 
in our Terrorist Screening Center (TSC) and in our 
investigations--and connecting themselves to us and, maybe, 
most importantly, getting our European colleagues to learn the 
lessons we learned, after 3,000 people were murdered in our 
country, 15 years ago--where we broke down the barriers and 
knitted ourselves together.
    Our European Union (EU) colleagues must do that--and 
connect themselves to us and our information better, so that we 
can spot and disrupt that flow when it comes.
    Senator Baldwin. I know my time is going to be very 
limited. What I will want to get to, fairly quickly, is the 
domestic implications and the planning under way for how we 
pivot, from looking for that needle in the haystack--the lone 
wolf--the radicalized person, to those who may gain access to 
the United States in this diaspora--maybe, well identified in 
advance. So, if you could----
    Mr. Comey. I will do 30 more seconds. Then, I will let 
Director Rasmussen follow up.
    In a sense, that is the threat we have been preparing for 
since 9/11: the external flow of terrorists looking to come 
into our country. That is where we have made such tremendous 
progress. So, to my mind, it is simply about continuing to do 
what we have done well, and finding ways to improve that. But, 
really, the central part of that mission is getting our 
partners, outside of the United States, to learn the lessons 
and to travel the journey we have traveled, in 15 years--and do 
it much more quickly. Nick.
    Mr. Rasmussen. I just have a couple of points to amplify 
the Director's comments, because I think what he is pointing to 
is exactly right. What we have succeeded in doing, across both 
Administrations, over the last 15 years, is creating an end-to-
end watchlisting system that allows us to have confidence that, 
if we have an identity, we are very likely able to prevent an 
individual from getting into the United States.
    The problem is, as the Director said--and, actually, there 
is a good-news story there in that, I think, terrorist 
organizations look at us as a harder target, as a result. They 
know it is harder for individuals to get into the United States 
than it is to get into Western Europe or, certainly, into other 
parts of the world.
    But, the problem is, we are not our own ecosystem, as the 
Director said. We are dependent, in part, on what our partners 
share with us, in terms of the information they have. We are, 
probably, the most aggressive collectors of identity 
information about terrorists--or potential terrorists--of any 
country in the world, but we cannot capture it all. And so, 
what we can get from our partners will give us the tools to 
identify someone at the border, to put them on a watchlist, and 
to make sure they cannot enter the country.
    I would point to one last challenge on this, and that is 
that, even as good as we are at this and as much progress as we 
have made in creating this end-to-end system, it is still a 
name-based system. And, over time, it needs to transition to a 
biometrics-based system, because terrorists, over time, have 
shown that they have the capacity to innovate, and they can 
develop the kinds of documents that, over time, might be able 
to fool us. And so, I think we would all be more comfortable 
if, a decade from now, we had a biometrics-based capacity to 
identify travelers at the border--or potential terrorists--
rather than a name-based system.
    Senator Baldwin. Thank you for those answers. I have a 
minute left. And so, I am not sure I am going to get the whole 
answer on the record, but let me present the question. I am 
trying to bring this, from this impending diaspora, to sort of 
the domestic implications.
    Secretary Johnson, I wanted to just highlight something 
that is concerning me, in my home State. And, that is the 
availability of grant resources for local partners. So, in the 
largest population center of our State, the surrounding 
Milwaukee area--their fusion center, the Southeastern Wisconsin 
Threat Analysis Center, recently, actually, worked with the FBI 
to thwart a terrorist attack in that city.
    Unfortunately, they have had to reduce their full-time 
personnel by two-thirds when Milwaukee no longer qualified for 
the Urban Area Security Initiative (UASI) funding--under the 
risk formula. And, I know that they could use additional funds.
    So, given the increase in attacks on soft targets, across 
the country, would you agree that there is a need for increased 
grant funding? And, can you report back--again, we are not 
going to have time for your answer on the record--on the threat 
portion of the formula evolving, in light of the uptick in soft 
targets?
    Chairman Johnson. And, the Secretary can respond in writing 
on that.
    Secretary Johnson. Yes.
    Chairman Johnson. Senator Portman.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. Thank you to all three of you. You guys 
are helping, every day, to keep our country safe--and no one is 
infallible, nor is our system--as we have seen, because there 
have been gaps and there have been problems. But, we want to 
thank you for your service, today.
    I am, particularly, concerned about two things. One is the 
homegrown terrorist threat. We have talked about that before, 
on this Committee and in our Subcommittee--and I continue to 
believe that our online presence is not what it ought to be, 
particularly, the counternarrative. I understand these groups 
are moving away from some of the services, like Twitter, which 
is good, but they are going to encrypted sites, as Director 
Comey said. And, we still are not figuring out who has 
responsibility for that. And, I want to get into another topic, 
so I will not ask you to respond to that. But, I may ask you 
some questions--more detailed questions--in writing, regarding 
who is in charge and how we are going to get the best minds 
working on the counternarrative to counter what we are seeing 
online, which, even today, continues to attract some of our 
young people. Before this Committee, you told us, a few months 
ago, you were concerned about this issue. When you are talking 
about foreign fighters and other jihadists scattering, in 2 to 
5 years, as you have said this morning--that being one of your 
major concerns--you have also told us that we have gaps in 
intelligence there, particularly, in what you call the 
``crucial zones of conflict.'' So, to me, this is a critical 
issue. And, it was just raised by one of my colleagues. But, 
how do you get that intelligence, so that, when people are 
scattering--and, Director Rasmussen, you talked about the need 
for biometrics, because of people being able to change their 
identity, as we have seen in the European situation. Those are 
the two concerns that I think are the most pressing for me.
    But, if I could raise another issue, since it is a 9/11 
hearing, there is legislation that we have worked on--thank you 
to Secretary Johnson for bringing it to us. The Federal 
Emergency Management Agency (FEMA) wants us, very much, to 
codify and help protect some of our urban search and rescue 
volunteers. FEMA task forces, around the country, rely on 
firefighters and other experts to come together and form these 
task forces. We are really proud of our task forces in Ohio.
    And so, we wrote legislation, which was reported out of 
this Committee, unanimously, on May 25th, with the support of 
FEMA and the Administration. Ranking Member Carper is a 
cosponsor and Senator Booker is a cosponsor. They have both 
agreed to try to help to get this thing done.
    We have now had it on the floor for a while, with no 
success getting what is called a ``hotline'' done--meaning just 
getting everyone to approve it, since it is non-controversial.
    So, I am just announcing, today, that I plan to go on the 
floor and offer it under unanimous consent, because we cannot 
figure out who is blocking it. We cannot imagine someone would 
want to block this.
    On 9/11, I was here. My wife was visiting--a rare visit to 
Washington, actually--and 9/11 hit. She got what I think was 
the last rental car out of Enterprise, out of Washington, and 
drove straight home to be with our kids. And, as she was 
driving, on some lonely highway, in Pennsylvania, Ohio Task 
Force One was coming the other way. And, lights were flashing, 
and she recognized them. And, they were driving into danger. 
And, I have known a lot of the men and women involved with that 
task force, including men who went that day, on that trip, who 
did go into harm's way. They deserve this protection. This 
protects their job when they get back. It protects them from 
liability. It protects them, in terms of their insurance. It is 
just commonsense stuff.
    So, one, I want to thank the International Association of 
Fire Fighters (IAFF). I want to thank FEMA, and others, who 
have endorsed this, supported this, and helped us to move it. 
But, let us get this done. We cannot wait until another 
Congress. FEMA actually came, originally, to this Congress, 
about 10 years ago, on this issue, and said that they wanted to 
codify it. So, Secretary Johnson, thank you for your support of 
it. And, I hope that we can move it forward.
    Do you have any comments on that, Secretary Johnson, this 
morning?
    Secretary Johnson. Senator, I am familiar with the 
legislation. I know FEMA is very supportive of it, and I hope 
it passes.
    Senator Portman. Thank you.
    With regard to the other two topics, on homegrown terrorism 
and the online challenge, can we dig a little deeper, as to who 
is responsible, in our government, to provide that 
counternarrative? It is not, necessarily, something that 
government does well, but we, on this Committee, have been able 
to look at some of the videos that these jihadists and 
murderers are putting out there, showing terrorists providing 
candy to children--being in playgrounds--and that it is, 
somehow, a euphoric life. And then, we have seen some of the 
counternarrative--and some of it has not been very effective, 
to be frank. I do not know who is best to respond to that. I 
know you have been involved with this, Secretary Johnson, but 
who is responsible, within our government? And, how can we 
ensure that we can get the best minds, including those from the 
private sector, involved in this in order to have a more 
effective counternarrative out there, to stop some of this 
homegrown terrorism? Which--if you look at these cases, whether 
it is Orlando, San Bernardino, or Cincinnati, Ohio, where we 
had a young man arrested, so much of it is being encouraged by 
online messaging by ISIS and other groups.
    Secretary Johnson. Well, first, the countermessage--just 
given the nature of it--would not be very credible if it were a 
government message. This is something that has to be developed 
within the community.
    To the extent that we, in government, have a role in 
promoting that, facilitating the partnerships, and getting the 
right people together in the room to develop this 
countermeasure, we have, in my Department, the Office of 
Community Partnerships, which, at the moment, is leading an 
interagency task force that consists of FBI, NCTC, and others, 
where we draw, from all of our Agencies, the best talent and 
the best minds. This task force was put together, probably, 
about a year ago. I think it is a good thing. No one Department 
has a corner on this, but, there is, in fact, a task force, led 
by my Department, devoted to countering violent extremism and 
building community partnerships, which includes this effort to 
amplify the countermessage.
    Senator Portman. Have you seen their work?
    Secretary Johnson. I have. I have seen the work that is out 
there online. I think it needs to have a broader message.
    We are also, by the way, encouraging this, through grants--
through State Department grants. In the future, I want to see 
more of my Department do the same thing. We are encouraging 
young people to develop these kinds of materials, and we are 
encouraging innovation in this area. But, inherently, it is not 
a government message.
    Senator Portman. I understand what you are saying, about a 
government message not being as effective. I also, though, 
believe that we cannot just allow there to not be a 
countermessage out there, because the government does not 
organize it. In other words, if the private sector is not doing 
it, if you cannot get, as you say, young people to go online, 
voluntarily, with their own countermessage that is effective, I 
think it is incredibly important. And so, we will follow up 
again, with more specific questions. But, I think the task 
force--as I understand it, some of the task force efforts have 
not been very compelling, from a sort of production point of 
view--to make it so that it is something that can help to 
change minds and persuade young people. So, we will continue to 
follow up on that.
    Senator Portman. Thank you.
    Chairman Johnson. Senator Sasse.

               OPENING STATEMENT OF SENATOR SASSE

    Senator Sasse. Thank you, Chairman.
    Director Comey, why was Cheryl Mills granted immunity in 
the classified data investigation for Secretary of State 
Clinton?
    Mr. Comey. The Department of Justice wrote a letter to 
Cheryl Mills' lawyer that gave her what is called ``active 
production immunity'', for the production of her laptop. So, it 
is not personal immunity, for her. The immunity ensures that 
we, the Department of Justice, will not directly use against 
you anything we recover on this laptop. It is a fairly common 
tool in criminal investigations, but that is what it was. And, 
the FBI judgment was: We need to get to that laptop. We need to 
see what it is. This investigation has been going on for a 
year, and this was, in the negotiation, a tool that her lawyer 
asked for, which the Department of Justice granted, so we could 
get the laptop.
    Senator Sasse. Thank you. Was she then Secretary Clinton's 
lawyer, in Secretary Clinton's interview with you? And, is that 
irregular?
    Mr. Comey. Our understanding was, she was acting as a 
member of her legal team--not irregular. It is not the FBI's 
job to decide who can be in a voluntary interview. There are 
ethical canons that govern lawyers, but we do not police that. 
If it was a judicial proceeding, the judge might police who 
could be there representing an individual. But, that is not 
something that we could do anything about, in a voluntary 
interview.
    Senator Sasse. Secretary Clinton has summarized, to the 
public, that you have said that her statements in her interview 
and her statements to the public were truthful. Do you think 
that is accurate?
    Mr. Comey. As an investigator, I kind of look at the world 
in an odd way. I never say that I believe anybody or that 
anything is truthful. I always ask: Do I have evidence to 
establish that it is untruthful or that I do not believe 
somebody? And so, as I said, when I testified about this, for 5 
hours, in July, we did not develop evidence that led us to 
believe that any of the statements to us were untruthful.
    Senator Sasse. Do you think that Cheryl Mills would have 
destroyed her laptop? And, if so, why was there this 
negotiation, as opposed to just asking for it by a grand jury 
subpoena?
    Mr. Comey. Well, it is a lawyer's laptop. So, having done 
this for many years, a grand jury subpoena, for a lawyer's 
laptop, would likely entangle us in litigation over privilege 
for a very long time. And so, by June of this year, I wanted 
that laptop. Our investigators wanted that laptop. And, the 
best way to get it was through negotiation.
    Senator Sasse. Do you think any laws were broken by Cheryl 
Mills?
    Mr. Comey. We have no evidence to establish that she 
committed a crime.
    Senator Sasse. Do you think that Secretary Clinton broke 
any laws, related to classified data?
    Mr. Comey. We have no evidence sufficient to justify a 
conclusion that she violated any of the statutes, with respect 
to classified information.
    Senator Sasse. Is there any distinction between that 
statement and saying that no prosecutor would bring charges, 
which is, I think, what you said in your public statements the 
day that you made your announcement?
    Mr. Comey. Well, I think it is another way of looking at 
it. I think, given the evidence in this case, I still think 
that no reasonable prosecutor would try to bring this case.
    Senator Sasse. OK. Thank you.
    Secretary Johnson, last week, the Inspector General said 
that somewhere between 800 and 1,800 individuals were 
accidentally granted citizenship. Can you tell us the exact 
number?
    Secretary Johnson. The exact number is 750. The Inspector 
General settled on this number of 858. As we looked closer, not 
all 858 were actually granted citizenship.
    Senator Sasse. Can you distinguish some of those categories 
inside of the 750? And, were any of them from special interest 
countries?
    Secretary Johnson. Not offhand. I cannot give you that 
breakdown offhand. I suspect it is a knowable fact, which we 
can provide you. I will say, Senator, that we have been 
reviewing all of these cases, as we have been going through the 
process of converting the physical fingerprints to digital, and 
there is a process under way, right now, and an investigation 
to denaturalize a number of those, who should not have been 
naturalized, as a result of what occurred. And, that is under 
way--and we are going to continue to do that.
    Senator Sasse. Were any of them from Iran, Syria, or Libya?
    Secretary Johnson. I would have to check. I do not know, 
sitting here right now, sir.
    Senator Sasse. This is an honest question, not a ``gotcha'' 
question. How would you not know that? Why would that not be 
something that is urgent to you--to understand the categories 
under the 750----
    Secretary Johnson. It is a knowable fact. I can get you the 
information. Just sitting here right now, I do not have the 
list in front of me. And, I do not want to be wrong.
    Senator Sasse. Do you think any of them were terrorists?
    Secretary Johnson. I have no basis to believe that any of 
them were terrorists or suspected terrorists.
    Senator Sasse. Director Comey----
    Secretary Johnson. We are going through the process now, of 
investigating the cases. This is a legacy matter that goes back 
to the 1990s. And, we have been denaturalizing people as we go 
through this process.
    Senator Sasse. But, these were 750 people that were under 
deportation orders. So, it would seem that as to the offensive 
versus defensive form of the question earlier--is there any 
more important defense than knowing if any of those 750 people 
were terrorists or likely terrorists?
    Secretary Johnson. I agree with you----
    Senator Sasse. What is the priority that would take 
precedence over that?
    Secretary Johnson. I agree with your question, sir, and 
that is why we are going through this process, right now, to 
investigate each one of these cases, using the resources we 
have.
    Senator Sasse. But, in the 11 days--or whatever it has 
been--since the IG made your Department aware of the problem, 
you did not think to ask if any were from Libya or Syria?
    Secretary Johnson. Senator, just sitting here, right now, I 
cannot give you the answer to that question. It is an important 
question. Just sitting here right now, I cannot give you the 
answer to the question. And, I do not want to be wrong.
    Senator Sasse. Thank you.
    Director Comey, I think the IG said that at least 2 of the 
then 858--I will take Secretary Johnson's point, it may be 750. 
At least two of them had previously been referred to the FBI 
for possible terrorist linkages. Do you know anything about 
that?
    Mr. Comey. I do not.
    Senator Sasse. So, when the IG reveals that to us--help 
us--help Nebraskans understand how the Executive Branch works 
together. The IG says these people have been referred to the 
FBI. Your Agencies are or are not talking to each other? How 
can we explain that to our citizens?
    Mr. Comey. Your question was to me, personally. I will find 
out, after this hearing. I am highly confident people in our 
Counterterrorism Division have been talking to DHS to find out 
what is there, and to look at it. It just has not been briefed 
to the Director, yet.
    Senator Sasse. Thank you.
    Secretary Johnson. Correct.
    Senator Sasse. The distinction between historic fingerprint 
records--and I know I am at time, so this one may turn into one 
of yours, by mail, for later. But, historic fingerprints versus 
digitized fingerprints-- how long has that process been going 
on? And, when will it be completed?
    Secretary Johnson. I expect it to be completed in the next 
9 months. It has been going on for quite some time--possibly 
years, sir.
    Senator Sasse. Before we had digitized fingerprints, 
though, we still had a process to decide who to let into the 
country--and not. So, that is not a sufficient excuse for what 
went wrong here, right? What happened to grant these 750 
people, who were supposed to be deported--how were they granted 
citizenship? What was the mistake?
    Secretary Johnson. They were granted citizenship at a time 
when the conversion was not complete. Therefore, the persons 
examining the records did not have the old fingerprints from 
the paper record. And, that is what happened.
    Senator Sasse. Thank you. Thank you to all three of you.
    Chairman Johnson. Senator Ernst.

               OPENING STATEMENT OF SENATOR ERNST

    Senator Ernst. Thank you, Mr. Chairman. Gentlemen, thank 
you for being here, today.
    Secretary Johnson, if I could start with you, please. On 
June 29, Senator Grassley, Senator Sasse, Senator Fisher, and I 
introduced a bill called ``Sarah's Law'' to amend the mandatory 
detention provisions of the Immigration and Nationality Act 
(INA) to require the Federal Government to take custody of 
anyone in the country illegally, who is charged with a crime 
that results in death or serious bodily injury. ``Sarah's 
Law''--and we have talked a lot about this as of late--was 
named in honor of a young woman from Iowa, who was killed in a 
drunk-driving accident, in Omaha, Nebraska. And, behind the 
wheel of the other vehicle was Edwin Mejia, who was in the 
country illegally and was driving drunk at three times over the 
legal limit. When local law enforcement reached out to the U.S. 
Immigration and Customs Enforcement (ICE), to see if they 
wanted to detain the driver, before he could post bond, ICE 
declined to do so. And, Mejia subsequently posted bond and 
remains at large.
    In a letter I received back in May, ICE acknowledged that, 
simply put, Edwin Mejia should be in custody and that his 
detention should have qualified as an important Federal 
interest, pursuant to the detention policies outlined in a memo 
you circulated in November 2014.
    Since then, we have been told, by ICE, that they have 
instructed their field offices to consider anyone in the 
country illegally, who kills an American, to be an ``important 
Federal interest'' and a priority for detention and 
deportation. And, first I have to say, for the record, that I 
cannot believe that this was not a top Obama Administration 
priority to begin with. And, regardless of what has been said 
in the field offices--we have not received any confirmation 
that it truly was said in the field offices. So, we do not know 
if this is actually the policy of ICE now--or not. There is no 
written confirmation.
    So, can you confirm that ICE field offices have been 
instructed to detain illegal immigrants who are charged--not 
convicted, but charged--with a crime that results in the death 
of an American citizen?
    Secretary Johnson. I believe I can. I am very familiar with 
the case of Sarah Root. I have exchanged correspondence with 
Senator Sasse on this tragic topic. We have reiterated to the 
field, at my direction, that there is this important Federal 
interest provision in our priorities memo, which I issued in 
November 2014. That has been sent to the field. And, just 
yesterday, I was looking at our numbers of those in detention, 
and it is reflected in the implementation of the policy. So, we 
are detaining more people, when somebody in the field judges it 
to be an important Federal interest to do so.
    Senator Ernst. Do you know how many times that important 
Federal interest has been used to detain someone?
    Secretary Johnson. Not offhand, but it is reflected in the 
statistics that we are seeing now.
    Senator Ernst. OK. So, we are seeing an increase, perhaps, 
in the number of people being detained by ICE?
    Secretary Johnson. Yes, ma'am.
    Senator Ernst. OK. And, do you have any updates, from the 
Department, on Edwin Mejia's--where he is located or where we 
are on finding him?
    Secretary Johnson. I know, from my communications with 
Senator Sasse--as I told him, we, along with local law 
enforcement, are looking for him.
    Senator Ernst. Do you believe him to be in the country or 
elsewhere?
    Secretary Johnson. I could not say.
    Senator Ernst. OK. And, for Director Rasmussen, we will 
move on to a different topic. In your testimony, you noted, 
``Having passed the 15-year mark since 9/11, the array of 
terrorist actors around the globe is broader, wider, and deeper 
than it has been at any time since that day.'' An issue that I 
have been focused on is the rise of ISIS in Southeast Asia. Is 
NCTC concerned with this? And, what do you believe to be the 
potential impact on U.S. national security?
    Mr. Rasmussen. That is a terrific question, Senator. I just 
returned from four nations in Southeast Asia, just within the 
last 2 weeks, myself, because I was concerned about how, as the 
caliphate has looked to expand around the world, there are 
certainly vulnerable populations in Southeast Asia, in a number 
of countries where the ISIL ideology could find fertile ground.
    As you well know, in the period after 9/11, Southeast Asia 
was a very active theater for al-Qaeda, and the al-Qaeda-
affiliated organization Jemaah Islamiyah posed a major threat 
in Southeast Asia to U.S. interests and to the interests of our 
partners. So, we have known, looking back, that this was always 
a potential hot zone, where ISIL might find the possibility to 
take root.
    My trip out there was designed to kind of engage with our 
intelligence partners to make sure that we were doing exactly 
what Director Comey was talking about--a much more aggressive 
exchange of intelligence information that we need to--to be 
able to get ahead of this. There are foreign fighters, from 
that region, who have made their way into Iraq and Syria. Those 
individuals seek to identify individuals to send back to--or to 
connect with--back in their home countries. And so, the same 
phenomenon that the Europeans are dealing with--that our other 
partners are dealing with--is being seen in Southeast Asia. So, 
we are applying many of the same tools to try to get ahead of 
it there.
    Senator Ernst. And, for Secretary Johnson and Director 
Comey, with those terrorist elements existing in Southeast 
Asia, do we see any implications of those potential members 
from Southeast Asia of ISIS or other terrorist-affiliated 
groups--do we see them traveling into the United States?
    Secretary Johnson. Senator, the way I would answer the 
question is this: We continually reevaluate and evaluate our 
targeting rules--the rules that we apply for how we assess 
someone entering the country--or who wants to enter the 
country. And, based on threat streams, we adjust those so that, 
when people seek to come here--or come here--and they show up 
at the port of entry (POE), they will either be sent to 
secondary, or they may be denied entry, altogether, at the 
outset.
    Senator Ernst. OK. Very good.
    Director Comey, do you have anything to add?
    Mr. Comey. No, just that that threat underscores the 
importance of connecting ourselves to those partners in 
Southeast Asia, so that we know who they are worried about, so 
we can put them in our databases and so we can stop them from 
getting in here.
    Senator Ernst. Very good. Gentlemen, thank you very much.
    Thank you, Mr. Chairman.
    Chairman Johnson. Senator Heitkamp.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you, Mr. Chairman.
    First off, Director Comey, thank you so much for coming to 
North Dakota to address what I think is a critical problem in 
our State, across Indian country. And, that is the lack of 
criminal justice support for native populations. I think you 
saw there the dramatic increase in the amount of drug crime, in 
particular, but also sexual assaults. Many of the communities 
that I visit with tell me that they feel under siege. When I 
challenge them to say, ``What are you doing?'', they tell us 
that the communities are terrified. And so, I know you and I 
may have a disagreement about the need for additional 
resources, but we certainly want to find out what it takes to 
staff up--to protect these communities, especially given the 
unique role the FBI plays in Indian country, in terms of your 
primary jurisdiction.
    I want to just make a point. I am just going to make some 
quick points and just get things on the record--probably I will 
not have as many questions.
    One of the trends that I have seen, Director, with very 
many of the very high profile incidences of terror and mass 
shootings is a background history in domestic violence. I think 
that taking a look at the National Instant Criminal Background 
Check System (NICS)--taking a look at how domestic violence 
plays into this and what we need to do to, maybe, pay more 
attention to those early warnings of someone with a violent 
background, it seems--I am not saying every person who commits 
an act of domestic violence could become a terrorist, but, I 
think, if we looked at those circumstances, we are seeing more 
and more of that. So, I would just maybe follow up with a 
question on NICS, domestic violence, and what we are doing to 
close those loopholes.
    Secretary Johnson--the Northern border--you were not going 
to come here without getting a question on the Northern border. 
Obviously, I am very concerned about staffing. I appreciate 
your response to Senator Tester's question about the need to 
continue our collaboration with Canada. We are blessed, on the 
Northern border, with a law enforcement relationship that has 
been historically very collaborative. And, I think we can 
double our impact on the border if we continue to advance the 
work that this Administration has started with the Canadian 
Government.
    I want to talk about drugs on the Southern border. I have 
spent a fair amount of time on the Southern border. I think 
most of the ranchers down there would tell you now that they 
are not as concerned about trafficking in persons coming across 
the border, but they believe a great deal of drugs are coming 
across the border. In fact, I recently received a picture of a 
cannon that shot marijuana across the border. And, I know you 
have seen those as well.
    Going back to the questioning--or the discussion with--I 
guess not much discussion--the diatribe with Director Comey--
one of the challenges that we have is that methamphetamines in 
my State have gone from $600 an ounce to $300 an ounce. I 
honestly believe that is supply driven, and that we are seeing 
more and more coming into the country. If we are going to have 
a logical discussion about issues regarding immigration, we 
need to take a new look at border security and make sure that 
we are doing everything that we can to respond to what people 
on the ground are actually seeing. I really appreciate all of 
the men and women--blue and green--who work for your Agency and 
who are doing a terrific job.
    The final point is, the great work that you are doing, in 
terms of outreach to communities that could, potentially, 
become radicalized. I think that is work that almost every 
community in our State could benefit from--Minneapolis is, 
obviously, an area where you have done a great deal of work on 
anti-radicalization. We have populations that move from Fargo, 
North Dakota and from Grand Forks, North Dakota to Minneapolis. 
How do we take that program more broadly? And, as you said--I 
think, very correctly--you are not as concerned about 
radicalization--the message coming from the government may not 
be the most helpful message. How do we get this message into 
the community? And, how do we build those relationships long 
term?
    Secretary Johnson. Well, first, if I, personally, do not 
make it to Fargo, others will, from my Department, for----
    Senator Heitkamp. Well, you are welcome in Fargo. You can 
visit the chipper. [Laughter.]
    It is at the Visitor Center.
    Secretary Johnson. Thank you. Senator. Listening to your 
questioning, I think the immediate answer I have is, it would 
be most important if community leaders could be encouraged to 
apply for some of our grants, in the future, for locally-based 
countering violent extremism initiatives. It seems to me that a 
community, like Fargo, could probably benefit from something 
like that.
    Senator Heitkamp. I am absolutely convinced that this 
community policing model that came out of the 1990s, where we 
actually have dialogues with community members, eyes and ears 
on the ground, and build the trust, is how we are going to do a 
much better job defending the homeland. But, also, the best 
defense is a good offense. I think that this is a great 
proactive measure that needs to be taken. And, please, I hope 
that, in the exit of this Administration, this is a project 
that continues to receive very high priority at the Department 
of Homeland Security.
    So, thank you so much, Mr. Chairman. And, I will yield back 
the rest of my time.
    Chairman Johnson. Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Thank you, Mr. Chairman.
    Gentlemen, thank you. Thank you for being here, and thank 
you for all you do for the country. You all stay at it all day, 
every day, and there is a lot that goes on, which most people 
do not know that you all do. So, we appreciate the work. You 
also can appreciate our second-guessing and looking over your 
shoulder all of the time, as we all have accountability. But, I 
want you to know we very much appreciate your work.
    Secretary Johnson, could you also pass on my appreciation 
to Administrator Neffenger as well? He has had a very tough job 
and has made some serious transitions within the TSA, both in 
personnel and in process. I know a lot of that is still in 
process, but can you pass, on from our Committee and from me, 
that appreciation for the hard work that he has taken on there 
as well?
    I know with my State as well--just on a purely parochial 
level, we have had conversations before about REAL ID and some 
uniqueness in Oklahoma, because we have a private system for 
issuing driver's licenses. So, it has been an ongoing process 
to be able to help try to figure out a way to be able to 
fulfill that, because of our unique system. Oklahoma is a 
little bit different from some States, in that people, 
typically, do not mind going to get a driver's license, because 
it is a private entity that does it. And, it usually takes 
about 5 minutes. That is not true in a lot of other States, and 
we are trying to not lose that part, while we are still working 
through the REAL ID process. So, I appreciate the flexibility 
that has been there.
    I want to talk briefly on several issues here as well. One 
is the growth of homegrown violent extremism. This is one of 
those threats that is incredibly difficult to be able to track, 
but it is trending the wrong direction. And, trying to figure 
out both the inspiration side and tracking how people are 
inspiring those, in the United States, and how we move, as, Mr. 
Comey, you have mentioned often, the ``flash-to-bang'' ratio--
that time period getting very close together. So, what do you 
see currently, nationally, on homegrown violent extremism, and 
the trends?
    Mr. Comey. We continue to work cases, trying to assess 
where someone is on the consuming to acting spectrum, which, as 
you said, is often very short and unpredictable.
    Senator Lankford. Right, and it is not illegal to be able 
to look at Anwar al-Awlaki's sermons, for instance. But, 
suddenly, those that are looking at it then turn violent, 
fairly quickly--but not all of the people do.
    Mr. Comey. Right. It is even protected speech to say, ``I 
am a fan of the Islamic State,'' so-called. And so, our 
challenge is to figure out where people are with that. We still 
have about 1,000 open investigations on that. If there is any 
good news--and I do not want to squeeze it too hard for good 
news--it is that the rate of increase has slowed a little in 
recent months.
    Now, my hope is that it is going to follow the same 
trajectory as the traveler numbers, and head downward. But, it 
has not headed downward, yet. We are still opening and closing, 
and it is ticking up slightly.
    Senator Lankford. So, we have thousands of foreign 
fighters, who have traveled to Syria and Iraq to fight with the 
Islamic State, that have returned back to Europe. We have a 
limited number--what is our number that we think have tried to 
travel to fight with the Islamic State--or at least traveled to 
that region, from the United States?
    Mr. Comey. With us--with the Islamic State--it is a number 
in the dozens.
    Senator Lankford. OK. So, we are in the thousands, though, 
of people that have traveled to that region and who have 
returned to Europe. How are we doing now, with tracking those 
individuals that have been traveling from Europe to the United 
States?
    Secretary Johnson. Senator, first of all, we have added a 
lot of security around the Visa Waiver Program. We get more 
information through the Electronic System for Travel 
Authorization (ESTA), which has actually been a productive 
exercise. We have denied ESTA travel--visa-free travel to a lot 
of people, as a result of the added security.
    Senator Lankford. Help me understand the phrase ``a lot of 
people.'' Give me an example of what that might be.
    Secretary Johnson. I have seen the statistics. In the first 
year that we added questions to the Electronic System for 
Travel Authorization, I think, we denied--as a result of those 
additional questions--people, I believe, in the thousands. I 
can get you the exact number. It is an available number.
    Senator Lankford. OK. That would be helpful.
    Secretary Johnson. The Congress, last year, passed 
additional security, which has also limited the ability to 
travel here visa-free. Congress gave me the authority to add 
countries to the list for which, if you visited them, you 
cannot come here visa-free. And, I took advantage of that. So, 
we have added security there.
    More broadly, however, I think it is incumbent on us to 
continue to work with the EU--with European nations on the 
sharing of Advance Passenger Information (API) and Passenger 
Name Records (PNR) data, more Federal air marshal agreements, 
and more preclearance--forward deployed. We used the football 
analogy, earlier, where we are defending on the 1-yard line. I 
want to defend on the 50-yard line. So, preclearance is an 
opportunity to screen people on the front end of their travel 
to the United States. We have had a number of foreign airports 
that have indicated an interest in building that with us. And, 
it is a priority of mine, and we are going to keep at it.
    Senator Lankford. OK. Let me bring in several topics here, 
as we try to blitz through this. Secretary Johnson, this is an 
internal issue, but it is one of the things that I am also 
concerned about and that we have clear oversight on. And, one 
is dealing with human resources (HR). When DHS was formed, you 
had all of these different HR systems. As I recall, the number, 
in 2011, was still reaching about 442--or somewhere through 
there--total different, independent systems--still within DHS, 
dealing with HR. 2011 came, and DHS set its standards. So, 
there are 15 main areas and 77 projects that we want to be able 
to accomplish. The Government Accountability Office (GAO) came 
out and said, at the end of 2015, that, of those 15 projects 
named in 2011, only one of them has been accomplished--of the 
areas--and of the 77 projects within that, I believe it is two 
or three that have been completed. And so, what I am trying to 
figure out is, give me--that was at the end of 2015. At the end 
of 2016, where do you think we are going to be, in trying to 
compile all of these different HR systems, so we can have a 
more efficient inner structure?
    Secretary Johnson. It is a good question. As part of my 
``Unity-of-Effort'' initiative, we have been looking to 
streamline the HR process and reduce the number of these 
systems. I would have to get you the exact number. I do know 
that GAO has been very complimentary of us for addressing all 
of the high-risk items on their ``High-Risk List,'' and we hope 
to get off of that list at some point in the not too distant 
future. But, I can get you the precise numbers.
    Senator Lankford. OK. That would be helpful to know. Just 
trying to be able to track the process, internally, there.
    Of the 148,000 older fingerprint cards that Senator Sasse 
mentioned before, where are we, as far as getting those 
digitized?
    Secretary Johnson. Nine months.
    Senator Lankford. Nine months--to be complete, from now, of 
all 148,000?
    Secretary Johnson. Nine months from now to be complete.
    Senator Lankford. OK. Mr. Comey, let me ask you about drug 
enforcement. And, this is one of the areas I am concerned about 
with the FBI. You have so much on your plate, but, obviously, 
dealing with drug enforcement, specifically, dealing with 
Central America--you have a very unique connection, where there 
is both gang involvement and what is destabilizing Central 
America--much of it is coming from the United States and the 
movement of drugs. Again, it is destabilizing, so it is causing 
immigration issues and a lot of crime and grief on our streets, 
for families. Give me an update on where you see the trends 
right now, in the movement of drugs in the United States, and 
the gang activity in the United States.
    Chairman Johnson. I will let him get away with it, because 
we are down to a couple of Members, but answer briefly.
    Mr. Comey. The two major trends to highlight--nearly all of 
the heroin coming into the United States and nearly all of the 
methamphetamine is being produced in Mexico, now--and a wave of 
highly pure heroin has been washing from the east coast toward 
the west, and a wave of highly pure methamphetamine has been 
washing from west to east. Those waves are now overlapping. 
Those are Mexican trafficking organizations that are using 
gangs in the United States as their distributors, but the 
importers are the Mexican trafficking organizations. Those are 
the two most important macro trends, at this point.
    Chairman Johnson. Thank you, Senator Lankford.
    This is a pretty interesting Committee. I do not think 
people realize that we really have two Committees in one. We 
have the homeland security side, and then we have the 
governmental affairs side, which is really the Senate's 
oversight Committee. We have, as a result, oversight pretty 
much over the entire Federal Government. We also have 
legislative jurisdiction, which we have tried to use, with 
Secretary Johnson, in trying to codify some of the good work he 
is doing to improve the Department of Homeland Security.
    But, we also have legislative jurisdiction over national 
security procedures and Federal records. And, I would be 
remiss, in my duty as Chairman of the Committee, if I did not 
delve a little bit, in terms of the mishandling of classified 
information by the former Secretary of State.
    Classified information and the protection of it is 
extremely important. If you mishandle classified material, you 
can put people's lives at risk. Certainly, if our adversaries 
have access to it, it can change their calculation. Their 
behavior may change. I cannot think--and, having been in 
business, the best possible thing I could get would be the 
email communication of my negotiating partners, to figure out 
where they are coming from. And, let us face it, if adversaries 
have emails, they could, potentially, blackmail government 
officials. So, the handling of classified information is an 
incredibly important issue. It is something incredibly 
important to protect.
    Director Comey, when all is said and done, there were seven 
emails that are so top secret that not one member, I believe, 
on this Committee--maybe somebody on the Senate Select 
Committee on Intelligence (SSCI)--can have access and actually 
look at those things. In your investigation, were you able to 
look at those--or was any member of the FBI?
    Mr. Comey. Yes, Senator, because I have the appropriate 
clearances, that was a particular special access program to be 
able to view that material--as did all of the investigators and 
analysts working on the case.
    Chairman Johnson. OK. But, it does say something when 
Members of this Committee do not have access to that, correct? 
These emails, in your investigation, were, obviously, outside 
of a classified system, correct?
    Mr. Comey. They were on an unclassified system, in fact.
    Chairman Johnson. So, they were clearly outside of a 
classified system. And, anybody emailing the Secretary 
understood that, correct? I mean, it is pretty obvious, when 
you are sending an email, whether it is to 
statedepartment.gov.class or to Clinton.inc--or whatever the 
email handle was. Correct?
    Mr. Comey. I am not sure that individual emailers 
understood what the Secretary's email address was, because it 
was not visible in a lot of people's fields. It would just have 
an initial----
    Chairman Johnson. How many----
    Mr. Comey. But, they knew--everybody emailing knew they 
were not on a classified system.
    Chairman Johnson. And, that is the only system that should 
be used for classified material, right? It is not like you have 
three, four, or five different email systems you should be 
communicating our Nation's top secrets on, correct?
    Mr. Comey. Correct. The FBI has three systems: 
unclassified, secret, and top secret. And so, you are supposed 
to use, for obvious reasons, the system appropriate to the 
information.
    Chairman Johnson. So, if you are not using that classified 
system, you are mishandling classified material?
    Mr. Comey. Yes.
    Chairman Johnson. In your press conference, you said that 
no reasonable prosecutor would bring this case. But, in fact, 
there are a couple of cases I just want to see if you are aware 
of: the case of Naval Reservist Bryan Nishimura, in 
Afghanistan, in 2007 and 2008. Now, he was not prosecuted, 
because, in order to avoid prosecution, he pled guilty to the 
unauthorized removal and retention of classified materials. A 
judge fined him $7,500, and he was ordered to surrender his 
security clearance.
    Another case was of James Hitselberger. He was a contractor 
translator at the naval base in Bahrain. He pled guilty to a 
misdemeanor for his handling of documents in 2014. He was 
sentenced to time served after 2 months in a D.C. jail and 8 
months of home confinement.
    How are those cases different than what happened with the 
former Secretary of State?
    Mr. Comey. All of the cases that were prosecuted, 
including--I definitely know the Nishimura case, for sure. I 
went through 40 years of cases. So, in June and July, I had 
them all in my head. I do not remember exactly the second one. 
But, I am highly confident that all of the cases that were 
prosecuted, including the misdemeanors, involved obstruction of 
justice and vast amounts of material handled in such a way that 
it was clear they were intentionally mishandled. Nishimura is a 
great example--a huge amount of stuff that he tried to destroy, 
once the investigation began. So, there were aggravating 
factors that led the Department of Justice to bring those 
cases.
    Chairman Johnson. Did you look at any aspects of 
obstruction of justice in your investigation, with any of the 
players, in this episode?
    Mr. Comey. Sure, yes.
    Chairman Johnson. And, you found none? I mean, on March 2, 
the ``New York Times'' reported, for the first time, that 
Secretary Clinton had a personal email account. On March 3, 
Chairman Trey Gowdy sent a letter to Secretary Clinton's 
attorney, requesting they preserve the records. The following 
day, Chairman Gowdy issued a subpoena. And, somewhere between 
March 2 and March 31, Platte River Networks' employees, 
basically, destroyed evidence. Is that not obstruction of 
justice?
    Mr. Comey. We looked at it very hard, to see if there was 
criminal obstruction of justice. In fact, one of the people the 
Department granted immunity to was the fellow involved in 
deleting that stuff, after the public notification and the hold 
letters. And so, we looked at it very hard. We could not make 
an obstruction case against any of the subjects we looked at. 
The Department granted immunity to the one fellow, who had 
erased the stuff, so that we could figure out, ``Did anybody 
tell you to do this? Did anybody ask you to do this?'' to see 
if we could make an obstruction case. We could not.
    Chairman Johnson. My concern, when all is said and done, 
with what Secretary Clinton did, is that, by not prosecuting 
anybody in this case, we really do signal that we have a two-
tiered justice system here. And, what is that going to do, in 
terms of other people that are charged with the responsibility 
of properly handling classified information? Are you also 
concerned about that, in terms of what actions you have taken?
    Mr. Comey. I very much disagree with your characterization. 
I think, had we recommended prosecution, it would have been a 
two-tiered justice system, because we would have been 
recommending it in a circumstance where, for the ordinary Joe 
and Jane, we would never have considered it. My goal in this 
case was to treat people--as it has been in my entire career--
fairly, without regard to their rank in life. This case was 
done in that way, and the decision was made in that way. So, I 
think to do otherwise would have been ``two-tiered.'' I am very 
proud of the work we did. I know it generated a lot of 
controversy, but I am very proud of the work we did.
    Chairman Johnson. I have just a couple of seconds, so I 
will not go down my next line of questioning. I might go to a 
second round or a third round. Senator Carper.
    Senator Carper. Thank you, Mr. Chairman.
    Is there anything else you would like to say, with respect 
to the last question or the last line of questioning from the 
Chairman, Mr. Comey?
    Mr. Comey. No, I do not think so, Senator.
    Senator Carper. OK. Mr. Chairman, I would like to ask that 
something be submitted for the record.\1\ It is actually a 
series of email exchanges between Secretary Clinton and former 
Secretary of State Colin Powell, who is one of the people I 
most admire.
---------------------------------------------------------------------------
    \1\ Information submitted by Senator Carper appears in the Appendix 
on page 85.
---------------------------------------------------------------------------
    Chairman Johnson. Without objection.
    Senator Carper. I am going to pivot here and change the 
subject a little bit. And, this would be one for Secretary 
Johnson. I would like to talk about the National Protection and 
Programs Directorate (NPPD). As the Secretary knows, I am not a 
big fan of a lot of acronyms, and it always was not clear to me 
why we would sort of--instead of actually calling an Agency 
what it--by a name that would actually tell you what it does, 
we call this one NPPD. And, I understand and very much support 
your efforts--the Department's efforts to streamline that 
particular entity and actually to call it by something that 
explains or conveys what they actually are responsible for 
doing. And, instead of calling it ``NPPD,'' to call it the 
``Cyber and Infrastructure Protection Agency,'' which makes a 
lot of sense. As my father would say, ``Well, that is common 
sense, Tom.''
    So, talk to us about why the streamlining and the name 
change are appropriate, please.
    Secretary Johnson. First, it is so that the name is 
simpler. Right? I always have to think about what NPPD stands 
for.
    Senator Carper. Me, too.
    Secretary Johnson. And, it is a very generic name. We need 
an Agency of our government devoted to cybersecurity. And, the 
substance behind our proposal to restructure this thing is so 
that NPPD sheds some of its less critical and more 
administrative missions and focuses on just two things--
cybersecurity and infrastructure protection--and focuses on 
both in a way so that the two missions are merged. We ought to 
have a focus on the cybersecurity of critical infrastructure 
and the cybersecurity of infrastructure. And so, we want to 
take those two missions, put them together, and have a lot of 
the same people focused on both of those missions in a more 
effective and efficient Agency, called the ``Cyber and 
Infrastructure Protection Agency.'' We need an Agency of our 
government devoted to those two very important things.
    Senator Carper. Good. I approve that message.
    Secretary Johnson. And, it will require an act of Congress 
to make all of that happen, which is why we are seeking the 
help of this Committee.
    Senator Carper. Good. Let us talk a little bit about 
EINSTEIN. I understand the Department has made a lot of 
progress on the implementation of the new cybersecurity 
information-sharing portal and on EINSTEIN. And, these are, as 
you know, really important programs that can, we think, help us 
on the cybersecurity front across our Federal Government--as 
well as in the private sector. And, I would like for you to 
drill down just a little bit more on these two programs, if you 
would, as well as the status of EINSTEIN implementation across 
Federal civilian Agencies. And, are there any Agencies you are 
concerned about not meeting the statutory deadline? I think it 
is December of this year. What is the status of the cyber 
information-sharing portal that we established, in law, at the 
Department of Homeland Security? Are companies starting to 
share their information?
    Secretary Johnson. We are, as you know, Senator, deploying 
EINSTEIN 3A, right now, which has the ability to block unwanted 
intrusions in the Federal civilian .gov system. About a year 
and a half ago, we had only covered about 20 percent of the 
Federal civilian workforce. Today, as we sit here, we are up to 
about 65 percent, and we have memorandums of understanding 
(MOUs) with all but three Cabinet-level departments. I 
scheduled a meeting with the Secretary of one of those Cabinet-
level departments, and lo and behold, the MOU fell into place 
before we had the meeting.
    Senator Carper. Maybe you have to schedule a couple more 
meetings.
    Secretary Johnson. And, the other two, I am confident we 
are going to have very soon as well--and those will be the last 
three large remaining ones. I am not referring to anybody at 
this table here. And, I believe we are going to meet the 
statutory deadline.
    Senator Carper. That would be great.
    Secretary Johnson. I think it is critical that we do that.
    Senator Carper. Please share a little bit of the status, if 
you will, of the cyber information-sharing portal that is being 
established at DHS, please?
    Secretary Johnson. We now have automated information 
sharing at the National Crime Information Center (NCIC). We put 
it in place in March 2016. And so, it is now a matter of 
getting Agencies and companies online with this new capability. 
We have the intelligence community (IC), and we have the law 
enforcement community--the Federal Government--online with 
this--a few other Departments--and we have a number of large 
companies in the private sector and in information-sharing 
organizations. But, there is a lot more to do there.
    And so, I am continually promoting this new capability, in 
the private sector, in particular--and so that is a work in 
progress.
    Senator Carper. Alright. Good. I think I mentioned to you, 
I went down to the Federal Law Enforcement Training Center 
(FLETC), in what used to be Naval Air Station (NAS) Glynco, 
Georgia. And, I was really impressed by what I saw. I spent a 
great day there--a wonderful day there, with a lot of very 
dedicated people, doing good work for our country. And, I want 
to talk just a little bit--some of them were TSA. They are now 
running a TSA training academy there to try to eventually train 
everybody who works at TSA. And, I have been especially 
impressed with the steps that Admiral Neffenger has taken at 
TSA. I remember the day you called me to say, ``We have 
somebody we want you to consider for confirmation as head of 
TSA, this guy named Neffenger''--I think a three-star admiral. 
You said, ``He is a good one.'' And, boy, you were right. You 
were right.
    Just do us a little bit of a favor and update us on how TSA 
has been doing after some very tough sledding earlier this 
year. How are they doing?
    Secretary Johnson. Well, first, the day Pete was sworn in, 
I handed him a 10-point plan for improving aviation security, 
in reaction to the Inspector General's covert testing last 
year. TSA has done an excellent job at implementing that 10-
point plan, including investments in new technology and less 
managed inclusion at airports--the longer line, where you take 
people from the longer line and put them in the shorter line. 
That contributed to the additional wait times that we saw this 
spring, along with the increased travel volume. We addressed 
that by, with the permission of Congress, expediting the hiring 
of new Transportation Security Officers (TSOs) and converting a 
lot of them from part-time to full-time. We have addressed the 
wait times. We are continuing to invest in new technology, and 
I think we have to build back that workforce. And so, we have a 
long-term plan, with Congress, to do that.
    Senator Carper. Mr. Chairman, just maybe another minute--
and this is the last time we will, probably, have Jeh before 
us. As much as I admire, respect, and feel gratitude toward Mr. 
Comey and Nick, I just want to say what a joy it has been to 
work with you. Thank you for your leadership. Our job was to 
try to make sure you were surrounded by a first-rate team, and 
the folks that you and the President gave to us to consider 
really are a first-rate team. We are really pleased with that.
    Ever since this Department was created, they have suffered 
from bad morale. With all of these disparate Agencies all over 
the place, it made it hard to communicate and to work together. 
For a long time, we did not have confirmed leadership at the 
top, and we have tried to address all of that and provide 
reasonable amounts of support financially. And, the morale of 
the Agency has finally turned around for the better. Would you 
just take a minute and talk about that--just a minute--and tell 
us what advice you would give to your successor on the 
importance of continuing some of the management reforms at the 
Department.
    Secretary Johnson. I would say that it is important to 
continue what we have begun. Particularly, when it comes to 
employee satisfaction, we turned the corner--and I hope that 
continues.
    The Deputy Secretary and I did, this year, 55 employee 
engagements in 22 different cities, to hear concerns and to 
meet employees. We have a more transparent hiring system and a 
more transparent promotion system. We have, as you know, a 
Department-wide mission statement. And, we have been stressing, 
to our workforce, the importance of their mission. And, I think 
people are responding.
    I think it is significant to note that the levels of 
employee satisfaction went up the most significantly in the 
immigration components. ICE went up seven full percentage 
points. U.S. Customs and Border Protection went up four 
percentage points. And, these are two very large government 
Agencies, in and of themselves. I am very proud of their 
progress, and I think we need to continue that--along with 
making our Department more centralized, less stovepiped, and 
more streamlined.
    So, I hope that happens. And, I will note that it was 
Members of this Committee, including you, in particular, Tom, 
that told me that management reform needed to be one of my 
priorities, if I was confirmed. And, it has been.
    Senator Carper. Thank you.
    Chairman Johnson. Senator Peters.

              OPENING STATEMENT OF SENATOR PETERS

    Senator Peters. Thank you, Mr. Chairman. And, thank you to 
our witnesses here, today. I thank you for your service, every 
day, in defense of our Nation. You have a very tough task, and 
you perform it with professionalism and passion. Thank you for 
that.
    I also wanted to say thank you to Secretary Johnson. I know 
this may be your last appearance. You have heard many of my 
colleagues praise your efforts. I want to join in that chorus. 
I appreciate your efforts, particularly, in Michigan--
especially the many trips that you have made to our State, 
particularly, to engage the community. As I am sure most folks 
are aware, we have a very large Middle Eastern population in 
Michigan--one of the largest concentrations anywhere. You have 
been actively engaged in that community, and I know that has 
been a part of your efforts to make sure that there is a 
community approach to dealing with the threats that are there.
    You were recently there in August. We spoke briefly before 
the beginning of the hearing. You were meeting with some police 
officers of Middle Eastern descent. If you would, just 
briefly--I think folks need to know what is happening in a 
vibrant Middle Eastern community, in Michigan, and how that can 
be a template for how we handle this issue around the country.
    Secretary Johnson. Senator, you have, in Michigan, some 
really dedicated, terrific DHS personnel, who took the 
initiative to form this Middle Eastern Law Enforcement Officers 
Association (MELOA), which consists of largely--but not 
exclusively--DHS people: CBP, ICE, and TSA--centered around the 
Detroit-Dearborn area.
    I went out there for a visit, to meet with them, several 
months ago. I think it was January. I was really impressed, and 
I encouraged them to grow nationally for a couple of reasons: 
one, community outreach; two, recruiting; and, three, cultural 
sensitivity, when it comes to others in law enforcement.
    And, when I went back in August, I was pleased to see that 
they were having a national-level meeting. Their organization 
has grown. And, I would like to see this concept grow across 
the entire Federal Government. And so, I have encouraged them 
to do that. And, Senator, I encourage you to get to know these 
people and support them as well. They are a terrific group, 
centered right there in your State.
    Senator Peters. Well, I look forward to it. And, I 
appreciate your efforts in shepherding that forward and in 
giving them the support that they need to continue to grow. 
And, hopefully, we will be able to involve all sorts of 
agencies, both local and Federal, in that kind of community.
    I also want to change course a little bit and just talk 
about some potential future threats. Certainly, we have had a 
discussion today about a variety of immediate threats that we 
have to be very concerned about--and you are actively engaged. 
But, also, I stay up at night thinking about some of the future 
threats that may be there and whether we are adequately 
prepared.
    One area that I have thought about--and we had some 
testimony here, before our Committee, not long ago--dealt with 
biodefense and bioterrorism, and the potential for that. We 
heard from former Homeland Security Secretary Tom Ridge and 
Senator Joe Lieberman, regarding some findings from the Blue 
Ribbon Study Panel on Biodefense--and, basically, they declared 
that the United States is unprepared for biological threats.
    The Government Accountability Office also has found that 
the biodefense enterprise is fragmented and is lacking the 
strategic oversight necessary for efficiency and 
accountability. And, certainly, I am concerned that a bioterror 
attack could be the next threat that we have to deal with--and 
we need to be prepared.
    Secretary Johnson, I am particularly interested in DHS's 
use of the BioWatch program, which was developed to provide 
early detection of a bioterrorism event. As you know, last year 
GAO identified flaws with BioWatch, including that it is not 
really possible to test it in an operational environment. So, 
could you give us an update on BioWatch and some of your 
efforts related to bioterrorism, please?
    Secretary Johnson. Senator, it has been a focus of mine. We 
have an office and a mission dedicated to the chem-bio threat 
to the homeland. I would be happy to give you a fuller written 
report on exactly where we are with BioWatch. But, this has 
been a focus of mine. And, obviously, it has been a focus of 
others, including Secretary Ridge.
    The way I look at it is this: There are threats--and all 
three of us deal with this every day. There are threats that 
are high probability, and then there are threats that are 
perhaps less--lower probability, but high impact and high cost. 
And, we have to be responsible and keep our eyes on all of it. 
And, that includes the chem-bio threat to the homeland. But, I 
can get you a fuller report, in response to your question, sir.
    Senator Peters. Well, I would appreciate that.
    I realize that you have multiple threats, and you do have 
to make those kinds of assessments on a regular basis. But, 
certainly, something of this nature, as you mentioned--even if 
the probability is maybe lower at this time, the impact is 
significant. And, when you look at some of the new technologies 
that are coming on board in the biotechnology sphere--Clustered 
Regularly Interspaced Short Palindromic Repeats (CRISPR) 
technology, for example, which could be used in some very 
nefarious ways--it certainly has incredible potential. But, 
also you can buy these kits fairly inexpensively, and this 
could present some significant issues.
    In my remaining time, I just want to touch on 
cybersecurity--another area that is critical for us and perhaps 
one of the biggest threats that we have as a country. I had the 
opportunity to be out yesterday and visit with folks at the 
National Security Agency (NSA) and with the Cyber Command. And, 
I am encouraged by the cooperation that I saw. I know a couple 
of you have mentioned how we are now working together on 
cyber--all of the Agencies coming together. I saw that, 
firsthand. It was refreshing to see.
    But, I would just like a brief comment on an area that I 
see as a vulnerability that we have to be thinking about--that, 
when it comes to cyber risk, it is usually the weakest link 
where the bad guys are going to go. And, although the Agencies 
have hardened systems and our Departments have done it, I think 
of small local governments and I think of small businesses--and 
others. We know some of the attacks that we have seen--cyber 
attacks--have gone through contractors that are small 
contractors tied to a larger organization. So, I see some 
significant threats, potentially, through local governments, 
municipalities, as well as small businesses.
    Are there things that we should be doing, here in Congress, 
to aid those efforts? Because, I know all three of you are very 
aware of that.
    Secretary Johnson. I will just start really quickly. First 
of all, I am very appreciative of the law Congress passed last 
year on cybersecurity, which has greatly aided what we do in 
DHS. When you talk about the weakest link--the weakest link is 
always the employee vulnerable to an act of spear phishing. And 
so, the very basic thing that all of us need to do is raise 
employee awareness among our respective workforces to the 
hazards of spear phishing. The most sophisticated attacks very 
often occur just simply through an act of spear phishing.
    Chairman Johnson. Senator Booker.
    Senator Booker. Director Comey, I would like to change the 
direction of my questioning, specifically, to issues of race in 
America. There has been a lot of talk recently about law and 
order. And, you and I both--you, in your position, and me, when 
I was mayor and had a city with high levels of violence and 
crime--really did focus on law and order. And, it is critically 
important. But, we make a distinction in America, between law 
and order, which is a baseline--but we seek a higher level of 
standard--and that is justice. We pledge allegiance to this 
idea of liberty and justice for all. Our highest ideal is on 
the Supreme Court building: ``Equal justice under the law.''
    Now, in Birmingham, in 1960, there was law and order, but 
there was a clear lack of justice. And, many people complained 
when some rabble rousers--outside agitators, came in, 
literally, breaking some laws, actually, but exposing the fact 
that there was law and order, but without justice.
    Now, Martin Luther King wrote eloquently in the letters 
from the Birmingham jail about that distinction--really 
focusing on the difference between law and order--which he used 
Germany, and other areas, as examples of places that had law 
and order, but did not have justice. We are Americans, and we 
strive for that ideal.
    Now, what frustrates me is, 50 years from that time, we 
still seem to be dealing with a lot of the same issues. The 
National Advisory Commission on Civil Disorders, also called 
the Kerner Commission, which was put forth by President Lyndon 
Johnson 50 years ago, was seeking to diagnose why there was so 
much violence and rioting in cities--as well as nonviolent 
protests--going on. And, the report identified police incidents 
as the most common cause of riots and criticized the 
overpolicing of black neighborhoods.
    Now, what frustrates me is that you read the Kerner Report, 
you read the letters from the Birmingham jail, and you read 
your words, sir--your courageous words--and, you see, we are 
still struggling from those issues.
    Now, you gave a speech that I found amazing. I actually, 
used your speech in my book that I wrote. The ``New York 
Times'' called it ``an unusually candid speech,'' and, for the 
record, this is what you wrote: ``With the death of Michael 
Brown in Ferguson, the death of Eric Garner in Staten Island, 
the ongoing protests throughout the country, and the 
assassinations of New York City police officers, we are at a 
crossroads.'' You stated, ``As a society, we can choose to live 
our everyday lives, raising our families and going to work, 
hoping that someone, somewhere, will do something to ease the 
tension--to smooth over the conflict. We can roll up our car 
windows, turn up the radio and drive around these problems, or 
we can choose to have an open and honest discussion about what 
our relationship is today--what it should be, what it could be, 
and what it needs to be--if we took more time to better 
understand one another.''
    Those are your words, sir.
    ``Much research points to the widespread existence of 
unconscious racial bias. Many people in our white majority 
culture have unconscious racial biases and react differently to 
a white face than to a black face. In fact, we all, white and 
black, carry these biases around with us.''
    ``But if we cannot help our latent biases, we can help our 
behavior in response to these instinctive reactions, which is 
why we need to work to design systems and processes that 
overcome the very human part of us all. Although the research 
may be unsettling, it is what we do next that matters most.''
    You were incredibly courageous in this speech talking about 
racial bias in policing. You and I both have an adherence to 
the idea of data. We have wild conversations in America, and 
sometimes I listen to them--and it seems like we are not even 
talking to each other--we are not leading with courageous 
empathy.
    But, what I am frustrated about is, while I think we need 
that empathetic--courageous empathy to begin to create the 
understanding to heal, as a country, we still, consistently--50 
years since the Kerner Report--based on data--have different 
standards of justice being applied to different communities, in 
our country, which is creating understandable tension. And, 
frankly, if we saw the overpolicing that the Kerner Report 
talked about being done in other areas--of affluence--we would 
have a very different reality in American politics, because it 
would not be tolerated.
    Now, you go on in this great speech to talk about specific 
needs that we have, if we are going to correct this problem. 
You state: ``Not long after riots broke out in Ferguson late 
last summer, I asked my staff to tell me how many people shot 
by police were African-American in this country. I wanted to 
see trends.'' You wanted the data.
    I continue, in your words: ``I wanted to see the 
information. They could not give it to me, and it was not their 
fault. Demographic data, regarding officer-involved shootings, 
is not consistently reported to us through our Uniform Crime 
Reporting (UCR) Program. Because reporting is voluntary, our 
data is incomplete and, therefore, in the aggregate, is not 
available.''
    ``I recently listened to a thoughtful big city Police 
Chief''--I stop here, and say that you and I both know there 
are lots of police departments that are trying to do very good 
things about confronting implicit racial bias. There are a lot 
of good, thoughtful leaders in this country, who recognize, 
like you do, that this is a problem.
    I continue, in your words: ``. . . thoughtful big city 
Police Chief express his frustration with that lack of reliable 
data. He said people did not know whether the Ferguson police 
shot one person a week, one a year, or one a century, and that 
in the absence of good data, all we get are ideological 
thunderbolts, when what we need are ideological agnostics, who 
use information to try to solve a problem.' '' And, you say, 
``He is right.''
    And so, I do not want to be here 50 years from now--or 
listening to my kids and grandkids struggle with what should 
have been done in the 1960s, when thoughtful police leadership, 
like you, called for understanding this data of what does exist 
in our country, which is racial bias. And so, I have put forth 
legislation, saying, ``Hey, let us get away from the 
ideological thunderbolts and get the data.'' We cannot solve a 
problem unless we measure it. You are a manager of an Agency. I 
was a manager of a city. If you cannot measure it, you cannot 
manage it.
    And so, I want your opinion on, basically, what you stated 
clearly--on the need for a national collection of data on 
implicit racial bias and on police interactions with 
communities.
    Chairman Johnson. You can provide that as a written answer 
to that question.
    Senator Booker. Sir, that is--you allowed so many other 
people to go over. My time has just ended. Why----
    Chairman Johnson. Not really. I am going to ask for another 
round, and you can have another round. OK. I am going to keep 
this to 7 minutes.
    There are three questions I want to ask, based on your 
testimony, as well as other questions asked during the hearing.
    First, Secretary Johnson, it appears now that this 
Administration has let in about 10,000 refugees from Syria. I 
have, certainly, been on the record saying that one of the ways 
we could minimize any kind of risk would be to establish 
criteria. I have suggested for it to cover women, children, and 
the relatives of Syrian-American citizens that have the 
financial wherewithal to support them.
    Is the Department, in any way, shape, or form, establishing 
criteria--or are we just vetting whoever the agency from the 
U.N. is providing us, in terms of asking us to take in 
refugees?
    Secretary Johnson. We established criteria in the following 
sense: Between us, the Department of State, and the United 
Nations High Commissioner for Refugees (UNHCR), we focus on 
people who we think would be good candidates for resettlement 
in the United States. That is number one.
    We have criteria, in the sense that we have added security 
checks to the process. And, if you meet certain criteria, there 
is going to be extra vetting. That was particularly true around 
Syrians. And so, we made the 10,000, frankly, by surging a lot 
of resources and adding a lot of people to it. But, we do have 
criteria. The criteria are not all public, and they should not 
be. But, we added security to the process--to the vetting 
process.
    Chairman Johnson. So, you are fairly confident that the 
vetting has been robust--we have not taken any risks? I am the 
lead sponsor of the American Security Against Foreign Enemies 
Act of 2015 (SAFE Act) that would have asked you three 
gentlemen to certify that. But, are you very satisfied that the 
10,000 Syrians we have let into this country represent no risk 
to America?
    Secretary Johnson. I am satisfied and comfortable that we 
put a lot into this process, with a lot of additional security 
and a lot of additional person power. And, I know for a fact 
that an awful lot of the 10,000 are families, women, and 
children, who are fleeing violence and fleeing terrorism--and 
who will be honest, hardworking people in this country.
    Chairman Johnson. OK. In testimony, we talked about more 
robust uses of social media.
    Secretary Johnson. Yes.
    Chairman Johnson. Looking at that, when we are evaluating 
and vetting refugees--can you describe that in a little greater 
detail? One of the things I have suggested--I have certainly 
asked people--why do we not have it so anybody seeking refugee 
status comes in, with their devices--and, basically, have a 
plug-in program that can very rapidly scan these things. How 
are you doing it? And, are we trying to utilize technology to 
the maximum effect to do what I am suggesting?
    Secretary Johnson. Senator, I want to expand the use of 
social media, not just for refugee vetting, but for visa-free 
travel, for example. We have a notice and comment period we 
just completed on adding social media questions in the ESTA 
system, right now.
    Chairman Johnson. But, again, those are questions. Is there 
any automated system where, literally, you ask people to come 
in with their devices, whether they are seeking a visa or 
whatever----
    Secretary Johnson. We have a system----
    Chairman Johnson [continuing]. You just plug it in and, 
bam.
    Secretary Johnson. The answer to your question is, we have 
a system for vetting social media. We need better technology, 
so that it is not manual.
    Chairman Johnson. So, right now, it is manual?
    Secretary Johnson. It is manual and it is time-consuming, 
which is why we need investment in the technology, so that we 
can look at social media, not just for refugee vetting, but for 
a whole host of things that this Department--and I suspect 
other Departments--use it for.
    Chairman Johnson. My guess is that that is technology that 
ought to be rapidly developed. Am I incorrect there? Either 
Director Comey or Director Rasmussen, can you weigh in on that, 
one way or the other?
    Mr. Rasmussen. I do not have any specialized knowledge on 
that particular question.
    Mr. Comey. I do know it is something that we work hard to 
develop the technology for--for our investigations--to go 
through huge amounts of seized media and publicly available 
social media. So, there are tools out there. Whether it is fit 
for this purpose or not, I do not know.
    Chairman Johnson. I would suggest your Department and your 
Agency work together on that.
    Finally, Director Comey, I do want to talk a little bit 
about these terror ``watchlists'', because I think we are 
throwing a lot of terms around, and people do not really 
understand them. So, I just want to make sure people understand 
what we are talking about here.
    From my understanding, the overall massive database is 
really the Terrorist Identities Datamart Environment (TIDE). 
Again, I am not sure what is law enforcement sensitive, so I do 
not want to talk about numbers--foreigners compared to 
Americans. A subsidiary list of that is called the Terrorist 
Screening Database (TSDB). And then, much smaller subsets of 
that are the No-Fly List and the Selectee list, correct?
    Mr. Comey. That is correct.
    Chairman Johnson. None of these lists were ever developed--
they were developed for law enforcement use, to give you an 
indication of whether or not you should investigate somebody--
or somebody should be pinged for further investigation, 
correct?
    Mr. Comey. They are intelligence and law enforcement 
databases. There are standards to get identities in there, but 
their primary purpose is currently for that.
    Chairman Johnson. They are far from perfect, correct?
    Mr. Comey. Correct.
    Chairman Johnson. The standards for getting on to those 
databases are not exactly what you call completely tight. But, 
let me put it this way: They were never intended to deny an 
American constitutional rights, correct? That would be a misuse 
of those lists?
    Mr. Comey. I think that is fair to say. I hope that is true 
of all of our work.
    Chairman Johnson. How do you get off of the lists?
    Mr. Comey. You get off of the list, either--and Nick will 
help me with this--but you get off of the list, either when an 
investigation has been closed, and then the agent sends the 
appropriate notification to have the name removed, or you make 
use of the redress procedures that DHS runs, to challenge and 
have it looked at--and then have your name removed if it is a 
mistake.
    Chairman Johnson. Of course, you have to know that you are 
on the list in order to seek redress. And then, even there, 
that is not a judicial process, correct? That is just through 
the Agency. And, let us face it, a bureaucrat in the Agency 
will make the final determination. You do not have the ability 
to get redress through the courts.
    Mr. Comey. It is an administrative process, but people do 
and have gone to court to challenge it beyond that, as I 
recall.
    Chairman Johnson. But, again, you have to know you are on 
the list.
    Mr. Comey. That is correct.
    Chairman Johnson. That does represent a problem. And, 
again, I will understand if you do not want to speak to this in 
open session, but I think you have had some reservations about 
utilizing those, in terms of those lists tipping off someone 
that you may be investigating. Are you willing to speak to that 
at all?
    Mr. Comey. I think what I can say in open session is, I 
just want to be thoughtful about any operational impacts to 
anything that we set up.
    Chairman Johnson. OK. My time is up. I am happy to let you 
respond to Senator Booker or--Senator Carper, do you have 
further questions?
    Senator Carper. I just want to yield my time to Senator 
Booker. Go ahead, please.
    Senator Booker. Mr. Chairman, just for the record, it is 
ironic that I was asking a question about equal application of 
the law, and you did not equally apply the rules--if I can 
finish, sir. You, literally, even said to somebody, ``Since 
there are only a few people here, I will let you go a little 
longer.'' And right before--you seemed to be incredibly strict 
with your application of the rules to me----
    Chairman Johnson. I cut other people off as well. Now, you 
can ask the question and get the answer.
    Senator Booker. I would like, for the record\1\, the 
details of how long people went over, so I can point out to the 
Chairperson how many minutes he allowed other people to go 
over--and then, when I am bringing up issues of race and equal 
application of the law, you suddenly cut me right off.
---------------------------------------------------------------------------
    \1\ The information submitted by Senator Booker appears in the 
Appendix on page 88.
---------------------------------------------------------------------------
    Chairman Johnson. That is an absurd characterization, but 
now you can get your answer.
    Senator Booker. Sir, I am not a characterization. I would 
like that, for the record, at least, so you could see how you 
apply--how you are conducting the hearing, sir.
    Director Comey, I am going to finish the last paragraph of 
your speech that I did not read, going back, so I can heighten 
that issue of data.
    ``The first step to understanding what is really going on 
in our communities and in our country is to gather more and 
better data related to those we arrest, those we confront for 
breaking the law and jeopardizing public safety, and those who 
confront us. `Data' seems a dry and boring word . . . without 
it, we cannot understand our world and make it better.''
    Could you please comment on the lack of data, in regards to 
policing in the United States, and how hard it makes this to 
address the issue of implicit racial bias in policing?
    Mr. Comey. Yes, thank you, Senator Booker. This is one of 
the most important issues we confront in the FBI--I think we 
confront as Americans. There are all kinds of people of 
tremendously good hearts in law enforcement, not in law 
enforcement, and in communities of color, protesting. Every 
single one of them is unguided by actual data and information. 
Every conversation, in my view, about the use of force and race 
in policing, in this country, is uninformed--people of 
tremendous good will, trying to resolve these things.
    What we could contribute, as a country, is information to 
that conversation, for the reasons you say, so that great 
people, who care deeply about these things, can come to 
solutions that are practical and just. We simply must collect 
data that is reliable, nationwide, about police use of deadly 
force in altercations--encounters with civilians. We simply 
must.
    If there is anything more inherently governmental than 
that, I cannot imagine what it is. But, we are now in a 
situation, where we have newspapers that are the only source of 
that kind of data--and their data is not comprehensive.
    We are going to do this. I have spoken to--one of the 
beauties of a 10-year term is, I am not going to shut up about 
this. I have 7 years to go. We will build a nationwide 
database, which the FBI will collect, that can show us what 
happened when, who was involved, what were they like, and what 
were the circumstances--so we can have informed conversations.
    No one in this country knows whether the use of deadly 
force against any particular group--African-Americans, most 
particularly--is up, down, or sideways, over the last 10 years. 
Nobody knows. Do we have an epidemic of violence? No one knows 
that. We could. We might not. We simply must gather the 
information, so we can care deeply, and solve these problems.
    Senator Booker. Director Comey, I really celebrate your 
leadership around this issue--as was said--the courageous 
speech you gave, and your remarks, right now. But, the one 
thing I will ask you, sir, is: Where we do have data, it shows 
an alarming fact pattern in our country--not only the studies 
that you cite in your speech about implicit racial bias--but 
the Department of Justice has dozens and dozens of police 
departments, including the one that I ran--where I was even 
surprised at the data they collected--to begin to create 
transparency. So, police department after police department 
that has--where we do now have the data, it is showing very 
dramatic--from New York City, to New Orleans, to Ferguson--
showing dramatic biases in policing.
    So, does that not lead you to believe--or that you see this 
consistent fact pattern, where we have collected the data, that 
we do not just have a problem in the United States--to a Nation 
that aspires to high levels of justice and equality under the 
law--we do not have a policing crisis in this country, given 
the data that we do have?
    Mr. Comey. I believe we have a chasm in this country, in 
many places, where a divide is open--and opening between law 
enforcement and communities, especially the African-American 
community. The causes for it are complicated and longstanding, 
but not elusive. We can stare at it. We have problems--things 
we can do better in law enforcement that are obvious--and we 
are working very hard to change.
    Where I think we can close the chasm is: Everybody wants 
the same kind of policing. Everybody does. Moms and dads as 
well as law enforcement want the same kind of policing-- up 
close, responsible, lawful, and firm--but fair--policing--
transparent. We are safer when we have it. And, the good news 
for America is, there are a ton of police leaders who feel 
exactly as I do. And, we are going to drive that chasm closer 
together, because it is the way to save lives in this country.
    Senator Booker. And, I want to appreciate and highlight 
what you just said. As a guy who ran a police department, we 
have incredible police leaders out there--the overwhelming 
majority of whom seek the exact same thing as the black 
community--as other communities--and, frankly, who are 
undercelebrated on the level of daily heroism that they show in 
conducting their jobs, as I just mentioned, earlier in my 
testimony--in my questioning about the two Linden police 
officers. But, what people do not realize is that goes on every 
single day--there are people out there, putting themselves in 
harm's way, who do share our same values. But, what you so 
astutely pointed out--a lot of this is not conscious. 
Sometimes, people are not even aware of how they are not 
applying the law equally. And, when I see Justice Department 
investigation after Justice Department investigation, police 
departments large and small, and police departments run by 
African-Americans as well as white folks, all coming up with 
the same set of data--that is presenting the same fact: that we 
do not have the equal application of the law. When we have 
police--prisons that are now full of folks that--whether it is 
Vermont, where African-Americans are 1 percent of the 
population, but 11 percent of their prison population is 
African-American--or States like mine--this dramatic unequal 
application of the law, throughout the entire justice system--
we have to get to the core of this understanding of what can we 
do to begin to correct for this implicit racial bias.
    And, I will conclude with just saying that your 
prescription of having a better national collection of this 
data--we cannot get there unless we, first, engage in an 
objective, dispassionate analysis of the facts and the data. 
And, the fact that we do not collect them, 50 to 60 years after 
the Kerner Report, is outrageous and unacceptable.
    Thank you.
    Chairman Johnson. Thank you, Senator Booker. Senator 
Carper.
    Senator Carper. Mr. Chairman, just before we break up, we 
came here with a hearing in mind, concerning how we can better 
protect our homeland from threats, both foreign and domestic. 
And, I want to thank Senator Booker for adding something that I 
did not expect. And, I really want to say to Director Comey, 
thank you for the way you have engaged on what I think we all 
know is a really important subject.
    We spent many months, in this room, years ago, on the heels 
of 9/11, with the 9/11 Commission, led by Lee Hamilton and 
Governor Kean. And, they had a vision that we would address and 
fix some of the problems that led to 9/11 and allowed it to 
happen. And, part of the problem was the stovepiping of 
information and our inability to work together and talk 
together. And, Mr. Comey, you said several times that we are 
not perfect--and the goal is to always be more perfect. I like 
to always cite the Preamble to the Constitution: ``We the 
people of the United States, in order to form a more perfect 
union . . .'' It does not say ``in order to form a perfect 
union,'' but ``a more perfect union.'' None of us are perfect. 
I always look at problems, and I say, ``Find out what works, do 
more of that.'' And, everything I do, I know I can do better. 
And, the same is true of all of us. But, I must say I am 
encouraged by the way you work together and the way your 
Agencies work together. And, I think we are all better for it.
    And, as Jeh Johnson prepares to leave, in a couple months, 
for more fertile fields, maybe--I do not know--but I want to 
close, Mr. Chairman. The Chairman and I are baseball fans, and 
you may be as well. One of my favorite Detroit Tigers players 
was an outfielder named Kirk Gibson. And, when he had a 
memorable home run, playing for another team, for the Los 
Angeles Dodgers in a World Series, it sparked them to a World 
Series victory. But, years later, he was back with the Tigers. 
In the middle of the season, he announces that he is going to 
retire--and he does it in a very different way. Usually, when 
people are going to retire from baseball, or whatever, they do 
it at the beginning of the season, or they do it in the middle 
of the winter, or they do it in spring training, and say, ``I 
just do not have anything left anymore.'' He did it in the 
middle of the season. And, he called the press corps to the 
Tiger dugout in July. And, he said, ``I have an announcement to 
make. I have been traded.'' And, people gasped. Then, he said, 
``Back to my family.''
    So, Jeh, we are going to trade you back to your family, but 
you come with our best wishes and affection and our thanks to 
your wife, Susan, and to your family. God bless.
    Chairman Johnson. Thank you, Senator Carper.
    Again, I also would like to express my appreciation. I 
have, certainly, enjoyed working with Secretary Johnson. I 
think you have done a lot of good work, and you have hired some 
great people--and you have improved the Department. Thank you.
    Gentlemen, thank you all for, again, your service to this 
Nation and for attending this hearing.
    The hearing record will remain open for 15 days until 
October 12, at 5 p.m. for the submission of statements and 
questions for the record. This hearing is adjourned.
    [Whereupon, at 12:52 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
